Semiannual Report to the Congress
April 1, 2005 – September 30, 2005              Volume 54




                            Office of Inspector General
                            U.S. Department of Labor
     A Message from the
      Inspector General

I am pleased to submit this Semiannual Report to the Congress, which summarizes the
significant activities and accomplishments of the Office of Inspector General (OIG) for the six-
month period ending September 30, 2005. During this reporting period, our investigative work
led to 353 indictments, 182 convictions, and over $182 million in monetary accomplishments.
Our audits of Department of Labor (DOL) programs and operations resulted in $11 million in
questioned costs.

One of the most notable achievements during this period was the first-ever civil complaint filed
against the International Longshoremen’s Association using the Racketeer Influenced and
Corrupt Organizations statute. This historic filing seeks to end corruption and mob domination of
this important labor union and put its future back into the hands of the rank-and-file members
that it was designed to serve.

The OIG’s work has identified vulnerabilities and fraud in DOL programs, such as the Foreign
Labor Certification program. The recent prosecution of immigration attorney, Maqsood Mir, and
his associates ended their scheme to profit by filing fraudulent labor certifications and visa
petitions. Mir was sentenced to 78 months in prison and ordered to pay $25,000 in fines; his firm
was ordered to pay $200,000 in fines.

Another significant case in our labor racketeering program led to the prosecution and guilty plea
of Peter Wong on charges of insurance fraud and money laundering. Wong controlled a group
medical association that failed with over $18 million in unpaid medical claims. He caused one of
the largest health plan failures in Hawaii’s history by misappropriating and diverting funds to his
family’s companies.

We also made significant findings and recommendations through our audit program. Our
performance audit of the National Emergency Grant (NEG), which is used to provide interim
health insurance coverage cost assistance under the Trade Adjustment Assistance Reform Act
of 2002, found that less than 5% of the eligible population participated in the program. The audit
also revealed that less than 7% of the appropriated funds were expended. In response to an
OIG recommendation, ETA agreed to conduct an immediate needs assessment of NEG funds,
and redirect funds as appropriate, for example allowing states with excess funds to redirect
such funds to Hurricane Katrina response activities.

Another significant audit revealed that few states are using IRS 1099 data to identify employer
misclassification of employees as independent contractors, thereby avoiding proper payment of
unemployment insurance taxes.

Responding to a prior OIG evaluation of the Mine Safety and Health Administration’s (MSHA)
handling of inspections, MSHA issued a proposed rule that would lower the permissible
exposure limit of asbestos at several types of mines. This action satisfied a recommendation in
our report and is consistent with the Occupational Safety and Health Administration’s asbestos
standards.

Finally, in keeping with our efforts to prevent and recognize fraud, waste, and abuse in DOL
programs, we are working collaboratively with government officials at all levels to provide
oversight of funds dedicated to providing relief and recovery to those affected by Hurricanes
Katrina and Rita.



Gordon S. Heddell
Inspector General
         Table of Contents



Selected Statistics.........................................................................................................................2
Significant Concerns .....................................................................................................................3



Employment and Training Programs
Workforce Investment Act.............................................................................................................6
Welfare-to-Work..........................................................................................................................10
Job Corps....................................................................................................................................12
Foreign Labor Certification..........................................................................................................14
Trade Adjustment Assistance .....................................................................................................16


Worker Benefits Programs
Unemployment Insurance ...........................................................................................................18
Employee Benefits Security Administration ................................................................................22
Office of Workers’ Compensation Programs...............................................................................24


Worker Safety, Health, and Workplace Rights
Occupational Safety and Health Administration..........................................................................26
Bureau of International Labor Affairs ..........................................................................................27
Wage and Hour Division .............................................................................................................29
Mine Safety and Health Administration.......................................................................................30


Departmental Management
Information Technology ..............................................................................................................31


Labor Racketeering
Internal Union Investigations.......................................................................................................34
Benefit Plan Investigations..........................................................................................................35
Labor-Management Investigations..............................................................................................38



Legislative Recommendations ....................................................................................................39
Appendix .....................................................................................................................................43




Semiannual Report to Congress                                                                                                                 1
April 1, 2005–September 30, 2005
                                                                                 For April 1, 2005–September 30, 2005
         Selected Statistics


Selected Statistics


Investigative recoveries, cost-efficiencies, restitutions,
fines and penalties, forfeitures, and civil monetary action ................................. $182.7 million

Investigative cases opened................................................................................................. 241

Investigative cases closed .................................................................................................. 264

Investigative cases referred for prosecution ....................................................................... 349

Investigative cases referred for administrative/civil action .................................................. 173

Indictments.......................................................................................................................... 353

Convictions ......................................................................................................................... 182

Debarments .......................................................................................................................... 45




Audit and evaluation reports issued...................................................................................... 76

Total questioned costs ............................................................................................. $11 million

Outstanding questioned costs resolved during this period ................................... $10.6 million
   Allowed1 ............................................................................................................ $4.3 million
   Disallowed2 ....................................................................................................... $6.3 million




Note: The Office of Inspector General conducts criminal investigations of individuals that can lead to prosecutions
based on criminal complaints, warrants, informations, indictments, or pre-trial diversion agreements. Successful
prosecutions may carry sentences such as fines, restitutions, forfeitures, or other monetary penalties. The OIG’s
financial accomplishments, which include administrative and civil actions, are further detailed and defined in the
Appendix of this report.

1
    Allowed means a questioned cost that the Department of Labor has not sustained.
2
    Disallowed means a questioned cost that the Department of Labor has sustained or has agreed should not be
    charged to the government.




Semiannual Report to Congress                                                                                                               2
April 1, 2005–September 30, 2005
     Significant Concerns


Significant Concerns
                     The OIG provides information and assistance to the Department and
                     Congress in achieving efficient and effective management of DOL programs.
                     As part of our effort to focus attention on mission-critical management
                     problems and their resolution, the OIG has identified the following areas that
                     we consider vulnerable to mismanagement, error, fraud, waste, or abuse


        Risk of Fraud Related to Hurricanes Katrina and Rita
                     The devastation created by Hurricanes Katrina and Rita has generated one of
                     the largest relief efforts put forth by the Federal government, over $63 billion
                     to date. DOL has already awarded over $233 million in grants and other
                     assistance and has oversight responsibilities for the Department’s
                     Unemployment Insurance programs (UI) and Disaster Unemployment
                     Assistance (DUA). In addition, DOL will receive approximately $21 million
                     from the Federal Emergency Management Agency (FEMA) to support the
                     Occupational Safety and Health Administration’s (OSHA) responsibilities for
                     the Worker Safety and Health Support annex of the National Emergency
                     Response Plan. With such a large volume of money available, the opportunity
                     for fraud can be very high. The OIG is concerned about DOL monetary
                     resources being used efficiently and effectively in all phases of this expansive
                     relief effort.

                     The OIG is working closely with other Inspectors General and the Department
                     of Justice to develop a proactive strategy and ensure a coordinated oversight
                     response. In support of the OIG’s primary emphasis on preventing fraud, we
                     have designated audit and investigative staff who have specific experience
                     with the key DOL programs that will be most heavily impacted. The OIG will
                     work with state and local auditors responsible for oversight of Federal funds,
                     as well as conduct our own audits and investigations. The areas of greatest
                     concern for DOL are National Emergency Grants, UI, DUA foreign labor
                     certification, contracting and procurement, and OSHA’s activities as part of
                     the National Emergency Response Plan.

                     The OIG is also concerned with ensuring that effective controls are in place to
                     compensate for authorities that were waived in the disaster areas in order to
                     provide timely relief. The type and amount of DOL resources required will
                     vary as the relief effort moves from immediate relief to longer-term recovery
                     and reconstruction. Proper oversight will reduce the likelihood of fraud, waste,
                     and abuse such as identity theft, undocumented workers, questioned costs,
                     and improper payments.




Semiannual Report to Congress                                                                      3
April 1, 2005–September 30, 2005
     Significant Concerns


        The Permanent Foreign Labor Certification Program
                     New regulations, which were effective March 2005, provide for the electronic
                     submission of new permanent foreign labor certification applications to
                     Federal Processing Centers located in Atlanta and Chicago. However,
                     applications submitted before March 28, 2005, must be processed at the
                     Backlog Elimination Centers located in Philadelphia and Dallas. As of August
                     2005, the Backlog Centers had 312,438 applications pending. Based on a
                     prior audit, we are concerned that in eliminating the backlog, many
                     applications that should be denied are being certified. Our audit projected that
                     69% of the applications were either misrepresented and/or incomplete. The
                     Department needs to remain diligent in implementing changes so that
                     expediting the processing of backlogged applications does not result in
                     certifying fraudulent applications.

                     Furthermore, it still stands that additional regulatory changes to the program
                     are needed. For example, although the approved labor certification bears the
                     name of a specific alien worker, that certification may be used to hire another
                     worker. Our investigations have shown that this practice, known as
                     substitution, encourages fraud involving the sale of approved certifications to
                     foreign workers for up to $20,000. In addition to prohibiting substitution, we
                     believe regulations should limit the life of a certification to 90 days to
                     discourage abuses.


        Procurement Concerns
                     The need to ensure controls are in place for the Department to properly
                     award and manage procurements is of concern to the OIG. The current DOL
                     organizational structure lacks separation of duties between procurement and
                     program functions, which increases the risk of noncompliance with
                     procurement requirements and may result in procurement decisions that are
                     not in the best operating or financial interests of DOL. Prior OIG audits have
                     shown that the more closely the procurement function is aligned with program
                     functions, the greater the risk of misuse or abuse. Therefore, it is important to
                     separate such incompatible functions to the greatest extent possible.

                     The Service Acquisition Reform Act (SARA) of 2003 addresses a number of
                     issues aimed at improving procurement management, including the
                     requirement for each Federal agency head to establish a Chief Acquisition
                     Officer (CAO) position to be filled by a non-career employee whose primary
                     responsibility is acquisition management. The Department is taking steps to
                     address the lack of separation of duties in its procurement function. On
                     June 6, 2005, a Secretary’s Order (Order) was circulated for comment in the
                     Department. The draft Order proposed the establishment of the position of
                     CAO, whose primary duty is acquisition management. While the draft Order is
                     a positive step toward fully implementing SARA, the Department still needs to
                     address the separation of incompatible program and acquisition duties. To


Semiannual Report to Congress                                                                       4
April 1, 2005–September 30, 2005
     Significant Concerns

                     that end, the Order should place operational oversight of day-to-day
                     acquisition duties throughout the Department under the direction of the CAO.

                     The OIG believes that, until procurement and programmatic responsibilities
                     are properly separated and effective controls put in place, DOL continues to
                     be at risk for wasteful and abusive procurement practices.




Semiannual Report to Congress                                                                   5
April 1, 2005–September 30, 2005
       Employment and                                                  Workforce Investment Act
      Training Programs

Workforce Investment Act
                     The goal of the Workforce Investment Act of 1998 (WIA) is to increase
                     employment, retention, and earnings of participants and, in doing so, improve
                     the quality of the workforce to sustain economic growth, enhance productivity
                     and competitiveness, and reduce welfare dependency. Authorization for WIA
                     ended in 2003, and its reauthorization is pending before Congress.


        DOL Involved in Subawards That Did Not Follow
        Procurement Regulations and Cost Principles
                     We initiated an audit in response to a hotline complaint that alleged misuse of
                     Department of Labor funds by the Chinatown Manpower Project, Inc. (CMP).
                     CMP was awarded a $1.1 million contract through the New York State
                     Department of Labor (NYSDOL) under a WIA National Emergency Grant
                     (NEG) to provide training services to workers displaced as a result of the
                     World Trade Center attack. We found the allegations to be without merit;
                     however, during the audit we became aware of potential irregularities in how
                     CMP’s subcontractors were identified to receive funds. We expanded our
                     audit coverage to include the propriety of the award of NEG funds to CMP
                     and its subcontractors, as well as CMP’s allocation of direct and indirect costs
                     and its verification of participant eligibility.

                     We found that DOL was substantially involved in arrangements to provide
                     funding for subcontractors under CMP’s contract. Specifically, departmental
                     officials identified and recommended service providers and notified individual
                     providers of their selection. These actions led NYSDOL to believe the
                     Department had sanctioned specific organizations to receive the funds
                     earmarked for Chinatown. CMP subsequently entered into subcontracts with
                     those organizations without full and open competition or proper justification of
                     the use of a noncompetitive process because it believed the Department had
                     designated specific groups to participate under the NEG.

                     We concluded that the Department placed itself in a situation of having
                     contributed to actions NYSDOL and CMP took that ultimately were
                     inconsistent with Federal procurement rules and regulations with which the
                     Department should ensure compliance. Our recommendations included that
                     the roles and responsibilities of key departmental personnel be clearly
                     delineated for grant awards, especially in emergency situations, and that all
                     departmental employees fully comply with and promote the spirit and letter of
                     Federal procurement and ethics laws and regulations.

                     DOL’s written response included a plan to provide specialized training to
                     regional appointees. Because the actions that led to the contract award
                     problems with the NEG were not confined solely to a regional appointee, the
                     Deputy Secretary subsequently agreed to provide such training to all
                     Department employees involved either directly or indirectly in procurement.



Semiannual Report to Congress                                                                      6
April 1, 2005–September 30, 2005
       Employment and                                                   Workforce Investment Act
      Training Programs

                     In a separate report on CMP’s cost allocation and participant eligibility, we
                     found that CMP could not support the amount allocated to the contract for
                     indirect costs and did not have an approved indirect cost rate. Further, CMP
                     could not provide eligibility verification of participants served as required by
                     the NEG.

                     We recommended that the Employment and Training Administration (ETA)
                     require NYSDOL to:
                         •   obtain an accounting of actual costs incurred under the CMP contract
                             and subcontracts and recover amounts determined to have been
                             claimed in excess of actual costs;
                         •   obtain documentation of a system that properly allocates CMP costs
                             to final cost objectives;
                         •   consider verifying participant eligibility when self-certifications are
                             used to expedite the eligibility process, as required by the grant
                             agreement; and
                         •   ensure that regular eligibility verification is performed on future awards
                             that include self-certification processes.
                     We also recommended that the Department ensure NYSDOL follow
                     applicable procurement regulations on future awards.

                     NYSDOL declined to provide written comments other than to say it felt very
                     strongly that overall the program was effective, and that the contract was
                     monitored according to established procedures. Since NYSDOL’s response
                     did not specifically address the recommendations and since no additional
                     information was provided, the report findings and recommendations remained
                     unchanged. (Report 02-05-202-01-001, issued August 25, 2005, and Report
                     02-05-203-03-390, issued September 2, 2005)


        States Vary in Implementation of One-Stop System
                     We conducted audits of the WIA-mandated One-Stop delivery systems in
                     three states (Illinois, Texas, and Washington) to determine if ETA’s vision of a
                     seamless service system had been implemented. While WIA gives flexibility
                     to the state and local governments to set up their One-Stops as they
                     determine will best serve their local clients, certain core services must be
                     made available, such as skills assessments, job search and placement
                     assistance, information on training providers, accurate supportive service
                     referrals, and follow-up services. ETA envisions having one overall
                     application process with comprehensive services available on-site with
                     minimal referrals.

                     We found that the states have captured ETA’s vision of a seamless service
                     system but are at varying stages of program implementation. Texas and
                     Washington have effectively implemented a seamless service system of One-
                     Stop providers. Illinois does not have a fully integrated One-Stop
                     management information system, and the memoranda of understanding



Semiannual Report to Congress                                                                        7
April 1, 2005–September 30, 2005
       Employment and                                                  Workforce Investment Act
      Training Programs

                     (MOUs) that have been established are not meaningful tools in establishing
                     cohesive workforce systems.

                     We advised ETA of three factors identified in the two Illinois One-Stop
                     centers we audited. These factors are (1) a lack of collaboration and
                     cooperation among all One-Stop partners; (2) a lack of involvement of all
                     partners in developing, implementing, and encouraging participation in a
                     common intake system; and (3) a lack of development of effective and
                     functional MOUs to help facilitate coordination and cooperation among all
                     partners.

                     In response to our draft report, the State of Illinois indicated that it has
                     already addressed the issues to be resolved in providing a comprehensive
                     seamless service workforce system, and is making numerous enhancements
                     to the service delivery system. (Report 06-05-007-03-390, Report 06-05-010-
                     03-390, Report 06-05-011-03-390, issued September 30, 2005)


        Department Should Strengthen Guidance on Use of
        Incumbent Worker Training Program Funds
                     In connection with an earlier audit in which we found that Arkansas had
                     improperly paid WIA funds to Nestle Corporation to train newly hired workers
                     under the guise of an incumbent worker training program (Report 06-05-002-
                     03-390, issued March 31, 2005), we issued a management letter to ETA
                     regarding state processes for using WIA incumbent worker funds.
                     Specifically, the management letter discussed two issues:
                         •   Federal incumbent worker training funds are intended to pay for
                             upgrading current workers’ skills, not business start-up costs; and
                         •   Federal criteria do not define how long an employer must be in
                             business or an employee must be employed to qualify as an
                             incumbent worker; therefore, a state could decide that any employer
                             or employee could qualify for a WIA-funded incumbent worker
                             program.
                     We recommended that ETA issue guidance and support inclusion in WIA
                     reauthorizing legislation of the following:
                         •   clarify that incumbent worker training programs are intended to pay for
                             skills upgrading, not start-up training costs for a new business;
                         •   encourage states to establish policies and definitions setting some
                             minimum time period for a company to be in business in a state in
                             order to qualify for incumbent worker training funds; and
                         •   encourage states to set some minimum time for a worker to be
                             employed by his/her current employer in order to qualify as an
                             incumbent worker.
                     ETA disagreed with the OIG’s findings that Arkansas’ use of WIA funding for
                     incumbent worker training was contrary to WIA statute and regulations. ETA
                     does not agree with limiting the states’ definition of “incumbent workers” and


Semiannual Report to Congress                                                                     8
April 1, 2005–September 30, 2005
       Employment and                                              Workforce Investment Act
      Training Programs

                     stated its position is that incumbent worker may include any employed
                     worker. Despite this disagreement, ETA stated that clarity is needed
                     regarding the incumbent worker training policy. (Report 06-05-020-03-390,
                     issued September 30, 2005)




Semiannual Report to Congress                                                                9
April 1, 2005–September 30, 2005
       Employment and                                                            Welfare-to-Work
      Training Programs

Welfare-to-Work
                     DOL provides Welfare-to-Work (WtW) grants to create job opportunities for
                     the hardest-to-employ welfare recipients and other eligible individuals. These
                     grants fund job placement services, transitional employment, and other
                     support services recipients need to make the successful progression into
                     long-term unsubsidized employment.


        More Than $2.8 Million in Questioned Costs Identified
        in WtW Grant Awarded to Savannah
                     The OIG conducted an audit of the $7,467,958 in WtW grants provided to the
                     City of Savannah, Georgia, to determine if Savannah complied with
                     regulatory requirements for WtW grants in the areas of managing WtW grant
                     funds and participant reporting. The audit found that Savannah did not
                     adhere to Federal regulations and its own policy and procedures. This
                     resulted in questioned costs totaling $2,856,430, consisting of:
                         •   $2,530,934 (the total expenditures of six contracts to grant partners)
                             for which Savannah did not conduct full and open competition; and
                         •   $325,496 in unauthorized and unsupported costs.
                     Furthermore, $729,935 of the $2,530,934 was also questioned for
                     unauthorized and unreasonable costs related to three of the six contracts.
                     Savannah also submitted inaccurate and unreliable performance data to the
                     Georgia Department of Labor and ETA, thereby failing to comply with
                     participant-reporting requirements.

                     We recommended that ETA recover the questioned costs and ensure that the
                     State of Georgia and Savannah follow existing controls that ensure the
                     validity of participant data for DOL programs. The State of Georgia and
                     Savannah did not dispute the inaccuracy of participants’ performance data;
                     however, Savannah requested that we change to administrative findings all
                     but one finding involving questioned costs. Since Savannah provided no
                     additional information that materially affected the report, the findings and
                     recommendations remain unchanged. (Report 04-05-004-03-386, issued
                     September 30, 2005)


        WtW Agreement with Goodwill Industries of Lower
        South Carolina, Inc.
                     After receiving an allegation by a former employee of Goodwill Industries of
                     Lower South Carolina, Inc. (GILSC) that the organization claimed excessive
                     matching contributions for technology and job readiness training provided to
                     WtW participants, we conducted an audit of GILSC. The South Carolina
                     Employment Security Commission (SCESC) had authorized the County of
                     Charleston, Grants Administration’s (the County’s) use of WtW Formula


Semiannual Report to Congress                                                                   10
April 1, 2005–September 30, 2005
       Employment and                                                            Welfare-to-Work
      Training Programs

                     Grant funds to contract with GILSC to provide a variety of services to eligible
                     program recipients.

                     Our audit did not substantiate the allegation; however, we identified
                     questioned costs and other problems including:
                         •   reported expenditures exceeding allowable grant funds by $45,098;
                         •   invoices containing duplicate costs and adjustments of $24,004;
                         •   unsupported charges for job readiness training totaling $20,500; and
                         •   one unsigned and two missing modifications between the County and
                             GILSC.
                     We recommended that the questioned costs in excess of the allowable grant
                     amount (not to exceed $45,098) be recovered and that the County be
                     required to prepare and implement written policies and procedures to ensure
                     compliance with Federal grant management.

                     The County and SCESC responded that expenditures for which GILSC was
                     not reimbursed exceeded its matching requirements. Therefore, the County
                     plans to ask ETA to allow GILSC to use the WtW costs for which it was not
                     reimbursed to support the matching requirements. SCESC and the County
                     were unable to substantiate the $20,500 in unsupported charges and agreed
                     to return that amount to ETA. The County also agreed to establish written
                     policies and procedures to address the issues specified in our
                     recommendation. (Report 04-05-001-03-386, issued July 7, 2005)




Semiannual Report to Congress                                                                    11
April 1, 2005–September 30, 2005
       Employment and                                                                      Job Corps
      Training Programs

Job Corps
                     Job Corps, established by Congress in 1964 and currently authorized under
                     the Workforce Investment Act of 1998, is recognized today as the nation’s
                     largest and most comprehensive residential education and job-training
                     program for at-risk youths ages 16 through 24. More than 65,000 students
                     participate annually in the program. The program is primarily carried out at
                     residential facilities that provide intensive education, vocational training, youth
                     development, counseling, job placement, and follow-up services. For FY
                     2005, more than $1.5 billion was appropriated for Job Corps.


        San Diego Job Corps Center Overstated Performance
        Data
                     We initiated the audit in response to a hotline complaint alleging that San
                     Diego Job Corps (San Diego) center management had ordered staff to tell
                     students to leave their resignation forms undated, which would have allowed
                     San Diego personnel to manipulate student resignation dates to inflate San
                     Diego’s reported student attendance as reflected in the student on-board
                     strength (OBS) performance measure. We also expanded our review to four
                     other performance measures reported by San Diego. Job Corps uses various
                     performance and outcome measures, including OBS, as part of a
                     comprehensive management system to assess program effectiveness.
                     Specifically, Job Corps uses OBS to measure a center’s capacity utilization
                     and to help monitor program costs.

                     We found the substance of the allegation to be valid. San Diego staff
                     obtained undated resignation forms/letters from students so that San Diego
                     staff could place students on leave as a way to delay reporting that they had
                     separated from the San Diego center. In fact, San Diego’s practice of
                     prolonging student stays was widespread and was not isolated to students
                     who resigned, but also included students who completed a vocation. San
                     Diego’s inflation of its OBS may have prevented the responsible ETA regional
                     office from identifying enrollment issues at San Diego, thereby avoiding
                     closer supervision.

                     We also found that while two other performance measures (60-day
                     commitment date and GED/high school diploma attainment rate) were
                     reliable, the vocational completion rate was not. Training records did not
                     support over 50% of the vocation completions tested. Students either did not
                     complete required tasks at all or completed them with a less-than-proficient
                     rating.

                     Job Corps had already begun taking action in response to two earlier OIG
                     audit reports on Job Corps performance measures; however, we
                     recommended ETA specifically ensure that Job Corps address the



Semiannual Report to Congress                                                                        12
April 1, 2005–September 30, 2005
       Employment and                                                                  Job Corps
      Training Programs

                     manipulation of student attendance records and unsupported vocational
                     completions at the San Diego center. ETA agreed with our recommendations.
                     Job Corps had begun taking action to ensure performance data reliability at
                     all its centers. Further, Job Corps obtained a Corrective Action Plan from the
                     center operator specifically for San Diego, and corrective actions have begun.
                     (Report 09-05-004-03-370, issued September 30, 2005)




Semiannual Report to Congress                                                                   13
April 1, 2005–September 30, 2005
       Employment and                                                 Foreign Labor Certification
      Training Programs

Foreign Labor Certification
                     The Department’s foreign labor certification (FLC) programs provide U.S.
                     employers access to foreign labor. The Permanent Foreign Labor
                     Certification program allows an employer to hire a foreign worker to work
                     permanently in the United States. Administration of this program is the
                     responsibility of three Federal departments: Labor, Homeland Security, and
                     State. Prior OIG audits have identified vulnerabilities in the FLC program, and
                     our investigations continue to identify fraud against these programs.


        Immigration Attorney Sentenced for Visa Fraud
                     On September 22, 2005, Maqsood Mir, an immigration attorney, was
                     sentenced to 78 months in prison and ordered to pay $25,000 in fines, after
                     being convicted on visa fraud charges. His law firm was ordered to pay
                     $200,000 in fines. Mir, Mohammad Bajwa (his associate who was previously
                     convicted), and others conspired to file 144 fraudulent permanent labor
                     certification applications with DOL. Mir directed his staff to file applications
                     without the employers’ knowledge and to falsify signatures of both employers
                     and employees. Mir also created fraudulent employer correspondence and
                     work experience documents. Mir paid Bajwa money in exchange for using the
                     name of Bajwa’s company on approximately 17 false applications. To date,
                     six employers have been convicted on charges of conspiracy to commit visa
                     fraud. This was a joint investigation with United States Immigration and
                     Customs Enforcement (ICE). U.S. v. Mir, et al. (D. Maryland)


        Polish Citizen Pleads Guilty in Visa Fraud Scheme
                     On September 12, 2005, a Polish national, Pavel Preus, pled guilty to all
                     charges for his role in an international employee-leasing fraud scheme and
                     money-laundering conspiracy that netted in excess of $24 million. In April
                     2005, Preus and five others were charged with conspiracy to commit visa
                     fraud, wire fraud, mail fraud, money laundering, and tax fraud. The leasing
                     companies, operating under various names, contracted out more than 550
                     Eastern Europeans to farms, dairies, hotels, and factories. From 1995 to
                     2003, the defendants conspired to employ the workers, who had entered the
                     United States on tourist visas, at dozens of American companies, thereby
                     circumventing the Department’s foreign labor certification process. To hasten
                     the scheme, the defendants altered immigration documents for the workers
                     and misrepresented to their client companies that the workers were
                     authorized as H-2B temporary workers. The investigation was conducted
                     jointly with ICE and the Internal Revenue Service (IRS). U.S. v. Preus (S.D.
                     Florida)




Semiannual Report to Congress                                                                     14
April 1, 2005–September 30, 2005
       Employment and                                                Foreign Labor Certification
      Training Programs


        Immigration Broker and Associates Caught in Visa
        Fraud Scheme
                     On September 9, 2005, an immigration broker and principal defendant, Hans
                     Gouw, was sentenced to 66 months in prison, three years probation, and a
                     forfeiture of $300,000. He had pled guilty in April 2005 to various conspiracy
                     charges and money laundering involving the submission of more than 200
                     fraudulent asylum and labor certification applications. To date, 20 defendants
                     have pled guilty and been sentenced for their roles in the scheme. Gouw
                     operated the Chinese Indonesian American Society, one of four brokerages,
                     to prepare fraudulent applications for labor certification on behalf of
                     Indonesian immigrants seeking to remain in the United States. The
                     investigation revealed that much of the information in the applications was
                     false, including the existence of the job, qualifications of the immigrant, and
                     the immigrant’s intended U.S. address. This investigation was conducted
                     jointly with ICE, the Department of State, the IRS, the Social Security
                     Administration (SSA) OIG, the Secret Service, the Federal Bureau of
                     Investigation (FBI), and the Fairfax County Police Department. U.S. v. Gouw,
                     et al. (E.D. Virginia)


        Brazilian Immigrants Sentenced for Creating
        Counterfeit Visas
                     Joao Desouza and three other Brazilian immigrants were sentenced on
                     September 8, 2005, for their visa fraud scheme. Desouza, the main
                     defendant, received 57 months in jail after he pled guilty to charges of visa
                     fraud conspiracy in February 2005. The defendants digitally created more
                     than 100 counterfeit H-2B visas and other documents and sold them to illegal
                     aliens for up to $2,000 each. Desouza then arranged for these illegal aliens to
                     be transported to state and Federal offices to obtain legitimate drivers’
                     licenses and Social Security cards. The joint investigation was worked with
                     ICE and the SSA OIG. U.S. v. Desouza, et al. (N.D. Georgia)




Semiannual Report to Congress                                                                    15
April 1, 2005–September 30, 2005
       Employment and                                               Trade Adjustment Assistance
      Training Programs

Trade Adjustment Assistance
                     The Trade Adjustment Assistance Reform Act of 2002 (TAARA) established
                     new mechanisms by which certain Trade Adjustment Assistance participants,
                     as well as eligible recipients of pensions administered by the Pension Benefit
                     Guaranty Corporation (PBGC), can receive assistance in covering the cost of
                     health insurance. The primary mechanism for such assistance is a Federal
                     tax credit administered by the IRS, equal to 65% of the amount paid by an
                     eligible individual for qualified health insurance coverage of the individual and
                     certain family members.


        Nationwide Participation in Health Coverage Tax
        Credit Bridge and Gap Programs is Minimal
                     We conducted a performance audit of the National Emergency Grant (NEG)
                     used to administer the Health Coverage Tax Credit (HCTC) Bridge and Gap
                     programs established by TAARA. TAARA established a Bridge and Gap
                     mechanism to provide interim health insurance coverage cost assistance to
                     eligible individuals during the IRS’s HCTC advance credit implementation and
                     enrollment processes. Our objectives were to determine whether a significant
                     number of individuals potentially eligible for the HCTC availed themselves of
                     the program and to identify barriers to participation. We conducted audit work
                     in three participating states covering the period from grant inception through
                     June 30, 2004, for each selected state. We also surveyed Bridge and Gap
                     participants and nonparticipants, as well as participating and nonparticipating
                     states, to determine why participation in the program was low.

                     As of June 30, 2004, the OIG found that nationwide participant levels were
                     4.8% of the potentially eligible population, and that expenditure levels were
                     less than 7% of appropriated funds. We identified several barriers to
                     individuals’ participation: high premium and up-front costs, effective exclusion
                     of PBGC populations, lack of program awareness, and overall program
                     complexity. Thirty-nine states did not participate primarily due to lack of
                     administrative funding, staffing, and systems to run the program. As a result,
                     the majority of the potentially eligible population did not have the opportunity
                     to avail themselves of the program, since they could not participate unless
                     their states opted into the program.

                     The OIG made 19 recommendations to ETA aimed at expanding both states’
                     and individuals’ participation in HCTC, including:
                         •   conduct an immediate needs assessment of NEG funds and, based
                             on the assessment, redirect funds as appropriate;
                         •   work with states, Federal lawmakers, and other partners to address
                             identified barriers to enhance both state and individual participation;
                         •   clarify guidance pertaining to the use of administrative funds and
                             availability of funds for the development of infrastructure systems; and



Semiannual Report to Congress                                                                      16
April 1, 2005–September 30, 2005
       Employment and                                               Trade Adjustment Assistance
      Training Programs

                         •   work with the IRS office to implement a consistent system of
                             communication between the states and the IRS and ensure that
                             proper controls are instituted to safeguard Federal funds.
                     ETA generally agreed with our recommendations and acknowledged that
                     opportunities for improvement exist, including the possibility of allowing states
                     with excess HCTC funds to redirect such funds to Hurricane Katrina response
                     activities. (Report 02-05-204-03-330, issued September 30, 2005)


        Performance Data for the Trade Adjustment
        Assistance Program was Unreliable
                     We conducted a review of calendar year 2003 Government Performance and
                     Results Act (GPRA) performance data for the Trade Adjustment Assistance
                     (TAA) program to determine the data’s completeness and reliability. DOL
                     uses eight data elements to support the performance data comprising its FY
                     2003 performance goal, “increase the employment, retention, and earnings
                     replacement of workers dislocated in important part because of trade and
                     who receive TAA benefits.”

                     One of eight data elements, date of exit, was not supported by source
                     documentation. The date of exit could not be verified because the anticipated
                     date was recorded instead of the last date of services, as required by the
                     TAA program. Further, the State Workforce Agencies (SWA) did not have
                     source documentation available to verify the date of exit. While we could
                     verify the remaining seven data elements, five were dependent on the date of
                     exit; therefore, those five were not complete or reliable.

                     We recommended that ETA ensure the TAA program collects and records
                     the participant’s actual date of exit according to ETA’s written definition and
                     properly manages and maintains source documentation to support the actual
                     date of exit. ETA concurred with the recommendations and has planned
                     corrective actions. (Report 22-05-007-03-330, issued September 15, 2005)




Semiannual Report to Congress                                                                      17
April 1, 2005–September 30, 2005
                                                                       Unemployment Insurance
 Worker Benefits Programs


Unemployment Insurance
                     The Unemployment Insurance (UI) program, a Federal-state partnership, is
                     the Department’s largest income maintenance program. This multibillion-
                     dollar program primarily provides income maintenance to individuals who
                     have lost their jobs through no fault of their own, as determined under state
                     law. OIG investigations are currently identifying UI fraud schemes that are
                     more complex, costly, and far reaching than in the past. These include
                     schemes involving identity theft and nontraditional organized crime groups. In
                     recent years, the program has suffered losses in the millions of dollars
                     because of a variety of fraud schemes. In addition to our investigative work,
                     OIG audits conducted during this period questioned costs claimed by two
                     states. Highlighted below are selected accomplishments.


        Identity Theft Ringleader Ordered to Pay Nearly
        $700,000
                     On May 16, 2005, Marcelo Marroquin, the leader of an identity theft ring, was
                     sentenced to 21 months in prison and three years probation. He was also
                     ordered to pay restitution of $697,559 after pleading guilty in February 2005
                     to charges of conspiracy to commit mail fraud. From April 2002 through
                     March 2004, Marroquin and others perpetrated a scheme to fraudulently
                     obtain UI benefits from the State of California. They accomplished this by
                     using stolen payroll data containing confidential information. The ring then
                     contacted the California Employment Development Department via telephone
                     or the internet in order to file fraudulent UI claims. U.S. v. Marroquin (E.D.
                     California)


        Defendant Sentenced to Six Years in Prison
                     On August 19, 2005, former real estate investor, Martti Antila, was sentenced
                     to six years of incarceration and ordered to pay restitution of $103,023. Antila
                     had operated a fictitious employer UI fraud scheme and defrauded the State
                     of Florida’s Taxol Settlement Fund, a settlement fund intended for patients
                     who had used the cancer-fighting drug Taxol.

                     Antila pled guilty in June 2005 to state charges of grand theft,
                     communications fraud, and criminal use of personal identification information.
                     He created seven fictitious companies and filed 15 claims using names of
                     both former clients and relatives in order to obtain $110,258 in UI benefits.
                     Antila also defrauded the Taxol fund by creating more than 60 fictitious
                     names, including 11 doctors’ names, and by forging signatures to collect
                     more than $77,000 in benefits. The joint investigation was conducted with the
                     Florida Department of Law Enforcement and the Florida Agency for
                     Workforce Innovation. State of Florida v. Antila



Semiannual Report to Congress                                                                     18
April 1, 2005–September 30, 2005
                                                                         Unemployment Insurance
 Worker Benefits Programs

        Defendant Sentenced to Three Years in Prison for
        Identity Theft
                     On August 25, 2005, James Tomasso, a former pizza parlor manager, was
                     sentenced to three years of imprisonment and ordered to pay $24,791 in
                     restitution. He had pled guilty to state charges of grand theft and identity theft
                     for using stolen identities to defraud the UI program. The investigation
                     revealed Tomasso formulated the scheme from a newspaper advertisement
                     that explained how unemployed Florida hurricane victims could apply for UI
                     benefits. Using the Social Security numbers of former employees from the
                     pizza parlors that he managed, Tomasso filed 141 fraudulent UI claims from
                     his cell phone and via the internet, receiving a total of $58,070. This joint
                     investigation was conducted with the Florida Department of Law Enforcement
                     and the Florida Agency for Workforce Innovation. State of Florida v. Tomasso


        Defendants of Identity Theft Scam Plead Guilty
                     Rogaciano Herrera and his associate, Ismael Lozano, pled guilty in August
                     and May 2005, respectively, to identity theft and mail fraud charges for their
                     roles in a scheme that used more than 200 stolen identities to defraud the UI
                     program. Herrera and Lozano stole the Social Security numbers of applicants
                     who had pursued employment at their fictitious janitorial services business.
                     They then used legitimate employers’ names and addresses to file 222 UI
                     claims and obtain more than $693,000 in UI benefits from February 2001
                     through February 2005. This was a joint investigation conducted with the
                     United States Postal Inspection Service (USPIS), ICE, and the SSA OIG.
                     U.S. v. Herrera, et al. (N.D. Texas)


        Obstacles Limit State Workforce Agencies Use of IRS
        1099 Data
                     The OIG conducted an audit to assess the extent of SWAs’ use of 1099-
                     MISC Income Data (1099 data) to identify potential employer misclassification
                     of employees as independent contractors, thus avoiding paying UI taxes.
                     Since August 2001, the IRS has permitted SWAs to apply for 1099 data for
                     use in UI field tax audits. The IRS developed a 1099 extract tailored for the
                     SWAs that contained non-employee compensation Federal tax information.

                     The audit found that, as of December 2004, only nine of 52 SWAs contacted
                     were using the 1099 data. Another 10 SWAs had applied to the IRS for the
                     data but encountered obstacles that prevented them from obtaining and using
                     it. Where SWAs used 1099 data, UI field audits in seven of the nine SWAs
                     resulted in identification of misclassified employees, recovery of
                     underreported UI tax contributions, and adjustment of over reported UI tax




Semiannual Report to Congress                                                                       19
April 1, 2005–September 30, 2005
                                                                      Unemployment Insurance
 Worker Benefits Programs


                     contributions. As of December 2004, the seven SWAs reported that they:
                         •   identified 7,118 misclassified employees;
                         •   recovered $1,492,521 in underreported UI tax contributions; and
                         •   adjusted $328,634 for over reported UI tax contributions associated
                             with these workers.
                     ETA and the IRS conducted telephone conference calls with SWAs to
                     discuss how to overcome obstacles they faced in the application process and
                     in using 1099 data in the UI field tax audits. The IRS reported that 16
                     additional SWAs have since applied to receive the 1099 data in 2005.

                     Our recommendations to ETA included that it provide assistance and
                     guidance to the 16 new SWAs that applied for the 1099 data to increase their
                     success in obtaining and using the data; and encourage SWAs to apply for
                     the 1099 data during the 2006 IRS enrollment period and use it in their UI
                     field tax audit programs. ETA agreed with our recommendations and has
                     already initiated corrective action. (Report 03-05-005-03-315, issued
                     September 30, 2005)


        New Mexico DOL Improperly Used More Than $1.6
        Million in WIA Funds
                     We initiated an audit at the request of ETA to determine if the New Mexico
                     DOL (NMDOL) improperly used funds reserved for WIA Rapid Response
                     program activities to help finance NMDOL’s UI Claims System Re-
                     engineering Project. The purpose of the WIA Rapid Response program
                     includes providing activities necessary to plan and deliver services to enable
                     dislocated workers to transition to new employment as quickly as possible.
                     States can use these program funds to take a proactive approach in
                     minimizing the time dislocated workers are out of work.

                     NMDOL’s UI Claims System Re-engineering Project was separately funded
                     by ETA, and, as NMDOL implemented several changes to the project, its
                     estimated cost increased to more than twice the amount ETA had funded. As
                     a result, NMDOL had a budget deficit for the project and used WIA Rapid
                     Response funds to fund the deficit.

                     We concluded that NMDOL improperly charged $1,648,018 of its UI program
                     costs to the WIA Rapid Response program. This amount comprises:
                         •   $748,657 of UI personnel compensation costs and other UI program
                             expenses; and
                         •   $899,361 of its UI Claims System Re-engineering Project costs.
                     We recommended that ETA disallow and recover from NMDOL, from non-
                     Federal funds, the $1,648,018 of WIA Rapid Response funds that were
                     improperly used, and require NMDOL to establish controls and procedures to




Semiannual Report to Congress                                                                   20
April 1, 2005–September 30, 2005
                                                                      Unemployment Insurance
 Worker Benefits Programs

                     ensure that costs incurred for one program are not shifted to other programs
                     either through journal voucher adjustments or direct charges.

                     The State of New Mexico disagreed with our audit conclusions on the basis
                     that a WIA Rapid Response event is a jointly conducted activity, with “access
                     to unemployment insurance” being a shared cost objective that may properly
                     be allocated to WIA Rapid Response funds. However, New Mexico indicated
                     that if the expenditures are disallowed by ETA, it would use its appropriated
                     Reed Act funds to cover the questionable costs. (Report 06-05-005-03-390,
                     issued September 30, 2005)




Semiannual Report to Congress                                                                  21
April 1, 2005–September 30, 2005
                                                    Employee Benefits Security Administration
 Worker Benefits Programs


Employee Benefits Security Administration
                     Each year, pension and welfare benefit plans generally are required to file an
                     annual return/report regarding their financial condition, investments, and
                     operations. The annual reporting requirement is generally satisfied by filing
                     the Form 5500 Annual Return/Report of Employee Benefit Plan and any
                     required attachments with the Employee Benefits Security Administration
                     (EBSA). The Form 5500 Series is part of the Employee Retirement Income
                     Security Act’s (ERISA) overall reporting and disclosure framework, which is
                     intended to assure that employee benefit plans are operated and managed in
                     accordance with certain prescribed standards and that participants and
                     beneficiaries, as well as regulators, are provided or have access to sufficient
                     information to protect the rights and benefits of participants and beneficiaries
                     under employee benefit plans.


        EBSA Should Mandate Electronic Filing of Form 5500
        to Improve Data Accuracy
                     The OIG conducted a performance audit of the EBSA ERISA Filing and
                     Acceptance System (EFAST) to determine if EFAST accurately captured data
                     on Form 5500 filings submitted by employee benefit plans. Developed and
                     operated by NCS-Pearson, an EBSA contractor, EFAST is used to meet the
                     legislatively mandated mission to protect the pensions and other employee
                     benefits of the American workforce.

                     Our audit disclosed that EFAST data from Form 5500s filed on paper, which
                     account for about 99% of the data, have consistently not met all the accuracy
                     standards EBSA established in the contract with NCS-Pearson. Our review of
                     35 paper Form 5500s found that only 23, or 62%, of the filings tested were
                     accurately input, with 12 of the 35 filings including at least one error in a
                     critical field. Additionally, NCS-Pearson’s own quality control testing, for the
                     period of time audited by the OIG, showed that paper filings were not meeting
                     the accuracy standards specified in the contract.

                     Despite improvements in data accuracy over time, NCS-Pearson continues to
                     be non-compliant. While EBSA has been aware of this lack of compliance
                     and has pressed NCS-Pearson to improve, EBSA has not been able to obtain
                     compliance. EBSA officials stated that, although the contract standards have
                     not been met, the contractor has been making good faith efforts to meet the
                     standards and has been improving overall data accuracy recently. NCS-
                     Pearson agreed in the initial contract to provide the levels of accuracy
                     required by EBSA for the proposed price. For six years, NCS-Pearson has
                     received payment but has not delivered the required accuracy. EBSA
                     continues to work closely with NSC-Pearson to improve and achieve
                     compliance with the data accuracy standards. However, EBSA has had to
                     invest additional staff resources to perform special analyses to correct



Semiannual Report to Congress                                                                     22
April 1, 2005–September 30, 2005
                                                    Employee Benefits Security Administration
 Worker Benefits Programs

                     EFAST data, and it has contracted for special services to adjust statistical
                     data for EFAST inaccuracies.

                     In contrast, we found that data from electronically filed Form 5500s were
                     accurate. However, since these data only comprise about 1% of the total
                     Form 5500 data, it did not allow the EFAST data to meet data accuracy
                     standards overall.

                     The OIG recommended EBSA require electronic filing of 5500 data, which we
                     estimate could save over $5 million annually in contract costs. We also
                     recommended EBSA strengthen future contracts’ performance remedies and
                     withhold payment when current contractual standards are not met. EBSA
                     concurred with all 3 recommendations. Moreover, EBSA welcomed the OIG’s
                     support of its efforts to mandate electronic filing of the Form 5500. EBSA also
                     provided information about actions planned to address the remaining
                     recommendations. (Report 09-05-002-12-121, issued September 30, 2005)




Semiannual Report to Congress                                                                    23
April 1, 2005–September 30, 2005
                                                    Office of Workers’ Compensation Programs
 Worker Benefits Programs


Office of Workers’ Compensation Programs
                     The Employment Standards Administration’s (ESA’s) Office of Workers’
                     Compensation Programs (OWCP) administers four major disability
                     compensation programs, which provide wage replacement benefits, medical
                     treatment, vocational rehabilitation, and other benefits to certain workers or
                     their dependents who experience work-related injury or occupational disease.
                     Two such programs are the Federal Employees’ Compensation Act (FECA)
                     program and the Black Lung Benefits program. In the FECA program alone,
                     more than $2.4 billion in medical and death benefits and wage loss
                     compensation was paid from July 1, 2003, to June 30, 2004, with more than
                     half of those benefits paid to injured employees of the U.S. Postal Service,
                     the Department of the Navy, and the Department of the Army. It is important
                     to note that the removal of a single fraudulent claimant from Federal benefit
                     rolls creates, on average, a $300,000–$500,000 savings for the government.


        FECA Program Overstated One GPRA Performance
        Element
                     We conducted a review of calendar year 2003 GPRA performance data for
                     the FECA program to determine the data’s completeness and reliability. The
                     performance data were used to support the six performance indicators
                     comprising FY 2003 Performance Goal 2.2C, “Minimize the human, social,
                     and financial impact of work-related injuries for workers and their families.”

                     We concluded that ESA overstated one of six performance indicators. This
                     indicator related to benefit payment savings generated from resolution of
                     long-term disability cases. ESA incorrectly included savings resulting from
                     claimant deaths, even though this reduction of benefit payments did not result
                     from ESA intervention.

                     We recommended that ESA ensure the FECA program excludes cases
                     resolved due to claimant deaths from the calculation of savings resulting from
                     ESA intervention. ESA concurred with the recommendation and has planned
                     corrective action to address the recommendation. (Report 22-05-008-04-431,
                     issued September 27, 2005)


        FECA Medical Provider Pleads Guilty to Racketeering
        and Health Care Fraud
                     On September 2, 2005, Dr. Cecil Knox III, owner of Southwest Virginia
                     Physical Medicine and Rehabilitation, PC, pled guilty to charges of
                     racketeering, illegal distribution of prescription drugs, illegal distribution of
                     marijuana to a patient, and health care fraud. He operated his medical
                     practice to dispense drugs for profit and to defraud insurance companies and



Semiannual Report to Congress                                                                      24
April 1, 2005–September 30, 2005
                                                    Office of Workers’ Compensation Programs
 Worker Benefits Programs

                     Federal programs, including FECA. The court stripped Knox of his medical
                     license and removed his authority to prescribe controlled medications. From
                     1997 through 2002, he illegally prescribed medications, distributed marijuana,
                     and filed numerous false medical billings to OWCP, Medicare, and Medicaid.
                     The investigation was conducted with insurance companies in the
                     southwestern Virginia area and more than 20 agencies, including Federal,
                     state, and local law enforcement agencies. U.S. v. Knox (W.D. Virginia)


        FECA Contractor’s Employee Sentenced for
        Embezzlement
                     On July 13, 2005, Lamar Pringle, an employee of a FECA contractor, was
                     sentenced to 21 months’ imprisonment, three years’ probation, and ordered
                     to pay restitution of $259,196. He pled guilty in April 2005 to charges of theft
                     of government funds. Under his company’s DOL contract, Pringle handled the
                     billing of medical treatments and related expenses for FECA claimants in the
                     Tallahassee area. Beginning in June 2004, Pringle used bogus medical
                     providers to submit billings for medical treatment or services to FECA
                     claimants. He later processed the bills for payments sent as U.S. Treasury
                     checks to him. U.S. v. Pringle (M.D. Florida)


        Former Reservist Ordered to Pay More Than $550,000
                     John Lee, former Army reservist and postal employee, was sentenced on
                     July 19, 2005, to two years in prison and two years of probation. He was also
                     ordered to pay $559,966 in restitution, forfeitures, and fines. Lee was
                     convicted in April 2005 of mail fraud and FECA fraud charges for failing to
                     report the income generated from both his prosthetics company and duty as a
                     U.S. Army reservist. The investigation found that Lee had falsely claimed that
                     he had been an Iraqi prisoner of war during the Desert Storm conflict to
                     obtain benefits for post-traumatic stress disorder. This joint investigation was
                     conducted with USPIS, Defense Criminal Investigative Service, and the U.S.
                     Department of Veterans Affairs OIG. U.S. v. Lee (W.D. Texas)


        Daughter of Black Lung Beneficiary Defrauds OWCP
                     Pamela Helmick, daughter of a deceased Black Lung Benefits program
                     beneficiary, pled guilty on September 26, 2005, to charges of theft of
                     government funds. Her mother’s monthly survivor benefits, which were
                     electronically deposited into their joint bank account, continued after her
                     mother passed away in June 2000. By not reporting the death, Helmick
                     fraudulently collected $26,425 until August 2004. SSA received an
                     anonymous complaint about the fraud, and Helmick later admitted her guilt to
                     investigators. She also collected $37,479 in SSA benefits by the same
                     method. This was a joint case with the SSA OIG. U.S. v. Helmick (N.D. West
                     Virginia)



Semiannual Report to Congress                                                                     25
April 1, 2005–September 30, 2005
 Worker Safety, Health, and                     Occupational Safety and Health Administration
    Workplace Rights

Occupational Safety and Health Administration
                     The mission of the Occupational Safety and Health Administration (OSHA) is
                     to ensure safe and healthful conditions for workers by authorizing the
                     enforcement of the standards developed under the Occupational Safety and
                     Health Act; to assist and encourage states in their efforts to ensure safe and
                     healthful working conditions; and to provide for research, information,
                     education, and training in the field of occupational safety and health. OSHA is
                     responsible for the safety and health of workers in nearly every workplace in
                     the United States.


        Construction Company President Agrees to Pay More
        Than $1 Million
                     On April 21, 2005, Kang Lee, president of Big Apple Construction, pled guilty
                     to charges of committing mail fraud and violating OSHA standards. These
                     charges were brought after a laborer, who was employed by Lee, died in a
                     worksite accident. As part of the plea agreement, Lee agreed to forfeit
                     $96,551 to settle a prevailing wage offense from a U.S. Postal Service
                     (USPS) construction job at the JFK Airport. He also agreed to: pay $157,940
                     assessed in three citations issued by OSHA in connection with the worksite
                     conditions; pay $55,194 to the Wage and Hour Division to settle overtime
                     wages from the USPS job; and forfeit $750,000 to settle his past failure to
                     make contributions to a pension plan of the Mason Tenders Union Local 79
                     on behalf of workers covered by a collective bargaining agreement. This was
                     a joint investigation conducted with ICE, the New York City Department of
                     Investigation, EBSA, Wage and Hour Division, and OSHA. U.S. v. Lee (E.D.
                     New York)




Semiannual Report to Congress                                                                    26
April 1, 2005–September 30, 2005
 Worker Safety, Health, and                                 Bureau of International Labor Affairs
    Workplace Rights

Bureau of International Labor Affairs
                     The Bureau of International Labor Affairs (ILAB) carries out the international
                     responsibilities of the Department of Labor. ILAB works with other U.S.
                     government agencies to create a more stable, secure, and prosperous
                     international economic system in which workers can achieve greater
                     economic security, share in the benefits of increased international trade, and
                     have safer and healthier workplaces where the basic rights of workers and
                     children are respected and protected.


        Jesus Cares Ministries Charged over $156,000 in
        Costs That Did Not Meet Federal Cost Principles
                     We conducted an audit to obtain answers to concerns ILAB had regarding
                     Jesus Cares Ministries (JCM) administration of a four-year, $652,000
                     cooperative agreement DOL awarded for a program to support combating
                     child labor through education in Zambia, Africa.

                     The objectives were to determine if JCM: obtained approval from ILAB for
                     program funds used for building construction; used program funds for
                     religious activities; had adequate funding to sustain the program through the
                     cooperative agreement period; and used program funds in accordance with
                     Office of Management and Budget (OMB) Circular A-122 cost principles.

                     The OIG found that JCM:
                         •   charged $156,969 in costs that did not meet OMB Circular A-122 cost
                             principle requirements: $151,216 in administrative costs not properly
                             allocated though more than one funding source benefited; $2,020 for
                             construction costs not approved; and $3,733 for costs not adequately
                             documented.
                         •   expended $741 in unallowable costs for religious activities.
                         •   had expended the majority of DOL funds during the program’s first
                             two years, leaving it with inadequate funds to sustain the program for
                             the remaining two years. JCM’s goal in the cooperative agreement
                             was to serve 2,040 children and, as of November 2004, JCM reported
                             to ILAB that they served 2,747 children. Also contributing to this
                             funding shortfall was JCM’s failure to budget for all its administrative
                             costs or take into account Zambia’s high inflation rate.
                     Our recommendations included that ILAB: direct JCM to develop and submit
                     for approval an allocation methodology for costs that benefited more than one
                     funding source; recover the amount of any administrative costs that JCM
                     overcharged for the cooperative agreement, as well as all identified
                     questioned and unallowable costs from JCM; and direct JCM to become
                     knowledgeable of OMB Circular A-122 principles and develop and implement
                     procedures and controls to ensure compliance.



Semiannual Report to Congress                                                                     27
April 1, 2005–September 30, 2005
 Worker Safety, Health, and                              Bureau of International Labor Affairs
    Workplace Rights

                     Both ILAB and JCM generally concurred with our recommendations and have
                     planned or initiated the necessary corrective actions. (Report 03-05-001-01-
                     070, issued September 8, 2005)




Semiannual Report to Congress                                                                 28
April 1, 2005–September 30, 2005
 Worker Safety, Health, and                                             Wage and Hour Division
    Workplace Rights

Wage and Hour Division
                     The Wage and Hour Division is responsible for the administration and
                     enforcement of a wide range of laws which collectively cover virtually all
                     private and state and local government employment. Wage and Hour Division
                     activities include obtaining compliance with the minimum wage, overtime,
                     child labor, and other employment standards.


        Family Sentenced for Violations Involving
        Labor Camp
                     On May 26, 2005, a farm labor contractor, Maria Garcia, and her family were
                     sentenced for violations involving abuse of illegal Mexican workers at their
                     labor camp. Garcia received 46 months in prison. Her son, Elias Botello,
                     received 37 months, and Garcia’s husband, Jose, received 14 months. In
                     December 2004, Maria Garcia pled guilty to forced labor charges, and Botello
                     pled guilty to conspiracy to commit forced labor. Two other family members
                     pled guilty to charges of harboring illegal aliens.

                     From May 2001 through October 2001, their business recruited illegal aliens
                     in Arizona to work for farmers in Orleans and Genesee counties in New York
                     State. By deducting various expenses from their pay, including exorbitant
                     transportation fees, food, housing, and other living expenses, the illegal
                     aliens were kept indebted. The defendants also threatened the aliens with
                     deportation if they tried to leave the overcrowded and unsanitary camps. This
                     was a joint investigation with the SSA OIG, ICE, DOL’s Wage and Hour
                     Division, and the New York State Attorney General’s Office. U.S. v. Garcia, et
                     al. (W.D. New York)




Semiannual Report to Congress                                                                   29
April 1, 2005–September 30, 2005
 Worker Safety, Health, and                             Mine Safety and Health Administration
    Workplace Rights

Mine Safety and Health Administration
                     The Mine Safety and Health Administration (MSHA) administers the
                     provisions of the Federal Mine Safety and Health Act of 1977 and enforces
                     compliance with mandatory safety and health standards as a means to
                     eliminate fatal accidents; to reduce the frequency and severity of nonfatal
                     accidents; to minimize health hazards; and to promote improved safety and
                     health conditions in the Nation’s mines.


        MSHA Proposes to Revise Asbestos Exposure Limit
                     In response to a March 2001 OIG evaluation report on MSHA’s handling of
                     inspections at the W.R. Grace & Company surface vermiculite mine in Libby,
                     Montana, MSHA issued a proposed rule in the July 29, 2005, Federal
                     Register. The proposed rule would lower MSHA’s Permissible Exposure Limit
                     (PEL) at metal and nonmetal mines, surface coal mines, and surface areas of
                     underground coal mines. Our 2001 evaluation report found that, even though
                     laboratory analysis of samples taken by MSHA inspectors were generally
                     under MSHA’s PEL, a large number of former Grace employees and family
                     members in Libby contracted asbestos-related illnesses. This occurrence,
                     coupled with current scientific evidence, indicated a need for MSHA to lower
                     its asbestos PEL. MSHA’s action satisfied recommendation one of the
                     evaluation report to “lower the permissible exposure limit for asbestos to a
                     more protective level.” Further, the proposed MSHA levels are consistent with
                     OSHA’s asbestos standards. (Report 2E-06-620-0002, issued March 22,
                     2001)




Semiannual Report to Congress                                                                  30
April 1, 2005–September 30, 2005
                                                                          Information Technology
Departmental Management


Information Technology
                     The Department operates sensitive systems comprising major applications,
                     general support systems, and mission-critical systems. DOL relies on these
                     critical information systems to monitor and analyze the nation’s labor market
                     and economic activities, manage workforce services, and protect and
                     compensate American workers. The Department continues to focus on
                     improving its information security program. For example, the Department was
                     proactive in establishing information technology (IT) security work groups to
                     develop better policies and procedures in logical access control, change
                     control management, and contingency planning.

                     The OIG notes the Department remains challenged in providing adequate
                     security controls involving certification and accreditation’s security control
                     assessments and patch management practices. We will continue to test these
                     areas to determine whether progress has been made.


        Despite Progress, Information Security Audits
        Throughout the Department Show Challenges Remain
                     As required by the Federal Information Security Management Act (FISMA),
                     the OIG conducted an annual independent evaluation to determine whether
                     the Department’s information security program adequately protects data and
                     information systems. In this year’s FISMA guidance, OMB requested that the
                     Inspectors General provide a qualitative assessment of their agencies’
                     certification and accreditation process. During this semiannual reporting
                     period, we completed audits of 20 of DOL’s 85 sensitive systems and we also
                     audited two states’ UI Benefit and Tax systems.

                     While we found the Department has continued to focus on improving its
                     information security program and progress is being made, our audits have
                     shown that challenges remain in the following areas:
                         •   Security control assessments (SCA) as part of the independent
                             certification and accreditation process – The SCA is the most crucial
                             part of the certification and accreditation process because it tests and
                             verifies that necessary security controls have been properly
                             implemented and are performing effectively.
                         •   Security patch management – DOL needs the capability to apply ad
                             hoc upgrades and patches to defend against continuous and
                             innovative threats and attacks on its information systems.
                     Specifically, our audits of the certification and accreditation processes for 20
                     sensitive DOL systems found that 11, or 55%, included SCAs that lacked
                     sufficient testing of technical controls. Upon notification of our findings, some
                     DOL agencies took immediate remedial action; however, at the end of the
                     fiscal year, problems remained in 5, or 25%, of the 20 systems audited.



Semiannual Report to Congress                                                                      31
April 1, 2005–September 30, 2005
                                                                          Information Technology
Departmental Management

                     We identified security patch management weaknesses in all three of the DOL
                     systems to which we applied the National Institute of Standards and
                     Technology Special Publication 800-26 methodology during this period. Two
                     of the three patch management weaknesses we identified were corrected
                     relatively quickly. The controls over patch management will continue to
                     challenge the Department as the software industry continues to struggle to
                     tighten the security and eliminate identified vulnerabilities with each release
                     of new software versions.


        Department Needs to Improve Procedures for
        Sanitizing Electronic Media
                     We conducted a performance audit of the Department to determine if it is
                     effectively sanitizing surplus electronic media prior to transfer or disposal in
                     order to minimize the risk associated with unintentional release of
                     information.

                     In our analysis of regional and national offices’ sanitization of 46 computer
                     hard drives that were ready to be transferred or disposed of, we found that:
                         •   all 24 of the regional office computer hard drives were properly
                             sanitized; and
                         •   11 of the 22 national office computer hard drives contained varying
                             degrees and combinations of licensed operating system software,
                             licensed application software, and unencrypted data of a sensitive,
                             personal, and/or confidential nature.
                     We attributed the unsanitized computer hard drives to weaknesses in the
                     Department’s procedures to ensure electronic media are being properly
                     sanitized during the disposal phase of a system’s development life cycle.
                     While policies and procedures exist within the Department and its agencies,
                     they allow for inconsistencies and/or bypassing certain steps.

                     We made four recommendations to the Chief Information Officer (CIO) to
                     ensure that:
                         •   the Department-wide electronic media sanitization policy is uniform
                             and includes testing in its verification procedures;
                         •   IT–specific security training includes proper sanitization of electronic
                             media;
                         •   the information security program includes periodic verification of
                             agencies’ sanitization procedures; and
                         •   research of emerging technologies is done to further protect DOL’s
                             information assets.
                     The CIO generally agreed with the report findings and recommendations, and
                     the Office of the Assistant Secretary for Administration and Management has
                     begun taking actions to address the recommendations. (Report 23-05-018-
                     50-598, issued September 30, 2005)



Semiannual Report to Congress                                                                     32
April 1, 2005–September 30, 2005
      Labor Racketeering

                     The OIG at the Department of Labor is unique among inspectors general in
                     that it has an “external” program function to conduct criminal investigations to
                     combat the influence of labor racketeering and organized crime in the
                     nation’s labor unions. Labor racketeering is the infiltration, domination, and/or
                     use of a union or employee benefit plan for personal benefit by illegal, violent,
                     or fraudulent means. Organized crime is defined as activities carried out by
                     groups with a formalized structure whose primary objective is to obtain
                     money through illegal activities. Traditionally, organized crime has been
                     carried out by La Cosa Nostra (LCN) groups, also known as the “mob” or the
                     “Mafia.” According to the Department of Justice, however, there has been a
                     rapid rise in transnational organized crime groups engaging in new criminal
                     enterprises. There are now organized crime groups that include people from
                     Asia, Russia, Eastern Europe, Nigeria, and West Africa.

                     Labor racketeering activities carried out by organized crime groups affect the
                     general public in many ways. Because organized crime’s exercise of market
                     power is usually concealed from public view, millions of consumers
                     unknowingly pay what amounts to a tax or surcharge on a wide range of
                     goods and services. In addition, by controlling a key union local, organized
                     crime can control the pricing in an entire industry. The public also suffers
                     when organized crime orchestrates illicit strikes and work slowdowns or
                     resorts to violence to maintain its operation of labor rackets.

                     Over the past two decades, the OIG has conducted extensive criminal
                     investigations of labor racketeering. Traditionally, organized crime has been
                     involved in loan-sharking, gambling, benefit plan fraud, violence against union
                     members, embezzlement, and extortion. OIG investigations have uncovered
                     millions of dollars of workers’ dues and benefit monies that have been
                     siphoned off by organized crime through embezzlement or more
                     sophisticated devices, such as fraudulent loans or excessive fees paid to
                     corrupt union and benefit plan service providers. Our investigations continue
                     to identify complex financial and investment schemes used to defraud
                     pension assets, resulting in millions of dollars in losses to plan participants.

                     Our current investigations are finding that nontraditional organized crime
                     groups are engaging in racketeering and other crimes against workers in both
                     union and nonunion environments. Moreover, they are exploiting the
                     Department of Labor’s foreign labor certification and Unemployment
                     Insurance programs. The following cases are illustrative of our work in
                     helping to eradicate both traditional and nontraditional labor racketeering in
                     the nation’s labor unions, employee benefit plans, and workplaces.




Semiannual Report to Congress                                                                      33
April 1, 2005–September 30, 2005
                                                                     Internal Union Investigations
      Labor Racketeering


Internal Union Investigations
                     Our internal union cases often involve instances of corruption, such as union
                     officers who abuse their positions of authority to embezzle money from union
                     accounts for their own benefit. Investigations in this area also focus on
                     situations in which organized crime groups control or influence a labor
                     organization, frequently to exercise influence in an industry for corrupt
                     purposes or to operate traditional vice schemes, such as drug dealing and
                     theft. Following are examples of our work in this area.


        Civil RICO Indictment Filed Against Union Officials
                     On July 6, 2005, a civil complaint was filed that sought to end organized
                     crime’s control of the International Longshoremen’s Association (ILA), AFL-
                     CIO, and its related benefit funds. The complaint was filed against: the ILA;
                     certain ILA officials from its Executive Board, including president John
                     Bowers; various ILA employee health, welfare, and pension benefit plans;
                     and organized crime members from the LCN Genovese and Gambino
                     families, including mob boss Peter Gotti.

                     The charges are based on decades of evidence relating to corruption and
                     LCN influence within the union and businesses, including commercial
                     shipping terminals operating on the New York/New Jersey waterfront and the
                     Port of Miami. This is the first prosecution brought against the ILA under the
                     Racketeer Influenced and Corrupt Organizations Act (RICO). It seeks court-
                     ordered relief that will assist in reforming and overseeing the union and its
                     benefit plans, bar current union officials and LCN members from the
                     waterfront, and prevent them from managing or influencing the operations of
                     the union and its benefit funds.

                     On September 14, 2005, Albert Cernadas, ILA’s executive vice president,
                     pled guilty to conspiracy charges and signed a consent judgment pursuant to
                     the complaint, agreeing to resign from all of his positions with the union and
                     its benefit plans. In addition to giving up his union membership, Cernadas
                     also agreed to not associate with any organized crime members or engage in
                     acts of racketeering.

                     The civil RICO action will seek to appoint a monitor to enforce democratic
                     reforms enabling the ILA to become a corruption-free labor organization. This
                     complaint is the result of a collaborative effort with the FBI, the New York City
                     Waterfront Commission, and the U.S. Attorney’s Office for the Eastern District
                     of New York. U.S. v. ILA, et al. (E.D. New York)




Semiannual Report to Congress                                                                      34
April 1, 2005–September 30, 2005
                                                                      Benefit Plan Investigations
      Labor Racketeering


Benefit Plan Investigations
                     The OIG is responsible for combating corruption involving the monies in
                     union-sponsored benefit plans. These pension plans and health and welfare
                     benefit plans comprise hundreds of billions of dollars in assets. Our
                     investigations have shown that this money remains vulnerable to corrupt
                     union officials and organized crime influence. Pension plan service providers
                     continue to be a strong focus of the OIG’s investigations.


        Top Union Officials Charged With Racketeering
        Conspiracy and Embezzlement
                     On September 14, 2005, four defendants, including the national president
                     and secretary-treasurer of the American Maritime Officers Union, were
                     charged with racketeering conspiracy, embezzlement from the union and its
                     employee benefit plans, mail fraud, witness tampering, kickbacks, and other
                     violations involving union and benefit plan records. From 1993 to 2005, the
                     defendants allegedly engaged in racketeering activity by using their positions
                     to dominate the operations of the union and its plans. The embezzlement
                     schemes involved vendors, bonuses to union and plan employees for making
                     political campaign contributions, and false receipts.


        Defendant Ordered to Pay $1.3 Million for Health Care
        Fraud
                     On June 29, 2005, John Hyde, president of Interstate Services Incorporated,
                     was sentenced to 41 months in prison and three years probation for his
                     leading role in a multiple employer welfare arrangement scheme. He was
                     also ordered to pay $1.3 million in restitution in lieu of forfeiting his home.
                     Hyde previously pled guilty in September 2004 to charges of money
                     laundering, mail fraud, health care fraud, and forfeiture, because his firm,
                     which marketed health insurance plans to small business owners, failed to
                     purchase the insurance. Thousands of people from California, Texas, and
                     other states were left without health coverage. Hyde diverted the premium
                     revenues to lease expensive cars, buy football tickets, pay salaries to family
                     members, and provide commissions to promoters of the scheme. Hyde had
                     operated similar schemes under different names for more than 15 years. This
                     was a joint investigation with the IRS Criminal Investigation Division (IRS-
                     CID), the FBI, and EBSA. U.S. v. Hyde (N.D. California)


        Defendant Pleads Guilty in Health Insurance Scheme
                     Peter Wong, who controlled Pacific Group Medical Association (PGMA), pled
                     guilty on June 14, 2005, to charges of insurance fraud and money laundering.
                     In 1997, PGMA failed with more than $18 million in unpaid medical claims,



Semiannual Report to Congress                                                                    35
April 1, 2005–September 30, 2005
                                                                    Benefit Plan Investigations
      Labor Racketeering

                     making it one of the largest health plan failures in Hawaii’s history. PGMA
                     had provided health coverage for 26,000 people, including members of the
                     United Public Workers Union Local 646. As part of his plea, Wong
                     acknowledged that he falsified financial reports that were submitted to the
                     Hawaii Insurance Commissioner (HIC). He also manipulated PGMA’s books
                     and records to understate the claims paid and reflect an absurdly low claims
                     liability, thereby deceiving the HIC and defrauding his customers. Wong
                     misappropriated millions and diverted large sums to other family companies,
                     and used them to make payments toward personal credit cards and other
                     personal expenses, including automobiles and gambling debts. This was a
                     joint investigation with the IRS-CID and EBSA. U.S. v. Wong (D. Hawaii)


        Defendants Ordered to Pay $39 Million for Diverting
        Pension Funds
                     On August 22, 2005, Robert Boyd, a former Evergreen Securities Ltd. official,
                     was sentenced to 37 months imprisonment and three years probation. On
                     October 3, 2005, Martin Boelens, Jr., another company official, was
                     sentenced to 46 months imprisonment and three years of supervised release.
                     Both were ordered to pay more than $25 million and $14 million respectively,
                     in restitution for fraudulently obtaining monies from investors and pension
                     funds to be used for their personal benefit and that of others. Boyd and
                     Boelens pled guilty in May 2002 to charges of securities fraud conspiracy,
                     mail fraud, and wire fraud. Both officials and another associate orchestrated
                     the domestic and international sale of fraudulent, worthless securities.

                     From May 1991 through January 2001, they devised a scheme to defraud
                     over 2,000 investors and qualified pension plans by selling securities in the
                     form of debt instruments or bonds. Upon obtaining the investor funds and
                     plan monies, the defendants moved the money to offshore bank accounts in
                     the Caribbean and Central America, converting much of the money for their
                     own purposes. The investigation was conducted jointly with the FBI, USPIS,
                     the IRS-CID, and the Florida Comptroller’s Office in Tampa, Florida. U.S. v.
                     Boyd and U.S. v. Boelens (M.D. Florida)


        Labor-Leasing Company Officials Ordered to Pay
        More Than $100 Million
                     In April 2005, Dennis Lambka and Ronald Bray, officers of Simplified
                     Employment Services, were sentenced to 54 months and 60 months in prison
                     respectively, and both received three years probation. They were also
                     ordered to pay, jointly and severally, restitution of $55,136,267. Lambka and
                     Bray previously pled guilty to charges of conspiracy to commit the following
                     offenses: embezzlement from an employee benefit plan; defrauding the
                     United States; and bank fraud. Restitution will be paid to the victims of the
                     embezzlement schemes which resulted in unpaid medical bills. In addition,
                     Lambka and Bray were ordered to set up a payment schedule with the IRS to



Semiannual Report to Congress                                                                  36
April 1, 2005–September 30, 2005
                                                                      Benefit Plan Investigations
      Labor Racketeering

                     pay back $51.7 million in unpaid Federal employment taxes. From 1996 to
                     2001, they bilked the company and its plans by applying various schemes,
                     including one that resulted in more than $32 million in unfunded checks being
                     issued. The money was used to acquire several other labor-leasing
                     companies, which ultimately sent Simplified Employment Services into
                     bankruptcy. This is a joint investigation with the FBI, the IRS, and EBSA. U.S.
                     v. Lambka and U.S. v. Bray (E.D. Michigan)


        Company Owner Sentenced for Defrauding Benefit
        Fund
                     On April 8, 2005, Richard Zerth was sentenced to 30 months in prison, while
                     his wife, Barbara, received a two-year term. They were also ordered to pay
                     $682,926 in restitution and $5,000 in fines, and will each serve a two-year
                     term of supervised release. In July 2004, the Zerths were convicted on all
                     counts to charges of mail fraud and making false statements in relation to
                     documents required by ERISA.

                     From September 1994 until December 1998, the Zerths devised a scheme to
                     defraud the Chicago District Counsel of Carpenters Trust Funds by
                     concealing about $4 million in payroll funds through the use of a “shell”
                     corporation. By concealing the total numbers of hours that were actually
                     worked by the employees of the union signatory company, Roof Right, the
                     Zerths underreported $500,000 in fund contributions. This investigation was
                     conducted with the FBI, EBSA, and DOL’s Office of Labor Management
                     Standards (OLMS). U.S. v. Zerth (N.D. Illinois)


        Defendants Involved in Pension Kickback Scheme
        Plead Guilty
                     On September 15, 2005, Chicago lawyers, Joseph Cari and Steven Loren,
                     pled guilty in an ongoing criminal probe into pension kickback schemes
                     involving the Illinois Teachers Retirement System (TRS), a $30 billion
                     pension fund. TRS serves teachers throughout Illinois, including union
                     members of the Illinois Federation of Teachers, an affiliate of the AFL-CIO,
                     and the Illinois Education Association. Cari pled guilty to attempted extortion
                     directed by a TRS board member. He admitted that he attempted to get a real
                     estate investment firm to pay an $850,000 fee to an unnamed consultant who
                     did not work on the deal. Loren, a former outside attorney for the pension
                     fund, pled to charges of obstructing and impeding the IRS, and aiding the
                     TRS board member in yet another kickback scheme. This is an ongoing joint
                     investigation with the FBI, the IRS, and USPIS. U.S. v. Cari and U.S. v. Loren
                     (N.D. Illinois)




Semiannual Report to Congress                                                                    37
April 1, 2005–September 30, 2005
                                                               Labor-Management Investigations
      Labor Racketeering


Labor-Management Investigations
                     Labor-management relations cases involve corrupt relationships between
                     management and union officials. Typical labor-management cases range
                     from collusion between representatives of management and corrupt union
                     officials to the use of the threat of “labor problems” to extort money or
                     benefits from employers.


        Local Union Presidents Plead Guilty and Admit to
        Violent Acts
                     On September 1, 2005, Robert Malvestuto Jr., president of Laborers
                     International Union of North America (LIUNA) Local 91, pled guilty to charges
                     of racketeering and conspiracy. He admitted responsibility for several acts of
                     violence and property sabotage directed against non-union companies and
                     trades persons working in Niagara County, New York, including throwing
                     explosive devices into the home of a non-union worker. The purpose of the
                     violent, extortionate acts was to obtain jobs and the associated wages and
                     benefits. U.S. v. Malvestuto (W.D. New York)

                     In another case involving Local 91, Dominick Dellaccio, a former business
                     manager and president, pled guilty to charges of racketeering and conspiracy
                     for using his position to direct members to inflict property sabotage and other
                     violent acts against both union and non-union workers in Niagara County,
                     New York. To date, 12 defendants have been convicted in this six-year
                     scheme that used violence to curb the progress of non-union companies in
                     the Niagara Falls area. Both investigations were conducted jointly with the
                     FBI, the New York Police Department, the Niagara County Sheriff’s
                     Department, and the Niagara Falls Police Department. U.S. v. Dellaccio, et
                     al. (W.D. New York)


        Defendant Sentenced to Nearly 10 Years in Prison
                     On May 18, 2005, James Duff, a former vice president of Liquor and Allied
                     Workers Union Local 3, was sentenced to 118 months in prison, three years
                     probation, and ordered to pay nearly $23 million in restitution, forfeitures, and
                     fees for conducting multiple fraud schemes. Duff pled guilty in January 2005
                     to charges of RICO conspiracy, money laundering conspiracy, mail fraud,
                     wire fraud, money laundering, and filing false tax returns for multiple fraud
                     schemes. One of Duff’s associates, William Stratton, a former business agent
                     of Local 3, was sentenced to 70 months in prison and three years probation.
                     Stratton was ordered to pay $529,000 in forfeiture. Between 1990 and 2002,
                     Duff’s associates were awarded City of Chicago contracts and subcontracts
                     based on fraudulently obtained women- and minority-owned business status
                     in excess of $100 million. The investigation was conducted with the IRS, the
                     FBI, DOL’s OLMS, and EBSA. U.S. v. Duff, et al. (N.D. Illinois)



Semiannual Report to Congress                                                                       38
April 1, 2005–September 30, 2005
         Legislative
      Recommendations

Legislative Recommendations
                     The Inspector General Act requires the OIG to review existing or proposed
                     legislation and regulations and to make recommendations in the Semiannual
                     Report concerning their impact on the economy and efficiency of the
                     Department’s programs and on the prevention of fraud and abuse.


        Allow DOL Access to Wage Records
                     The Department of Labor and the Social Security Administration (SSA)
                     currently have a memorandum of understanding (MOU) in place that allows
                     State Workforce Agencies to access Social Security data on individuals who
                     apply for Unemployment Insurance (UI). The MOU is a good first step.
                     However, to reduce overpayments in employee benefit programs, including
                     UI and FECA, the Department and the OIG need legislative authority to easily
                     and expeditiously access state UI wage records, SSA wage records, and
                     employment information from the National Directory of New Hires, which is
                     maintained by the Department of Health and Human Services.

                     A provision in the State Unemployment Tax Authority (SUTA) Dumping
                     Prevention Act of 2004 (Public Law 108-295) enables state agencies
                     responsible for administration of unemployment compensation programs to
                     obtain access to the National Directory of New Hires. By cross-matching UI
                     claims against this new-hire data, states could better detect overpayments to
                     UI claimants who have gone back to work but who continue to collect UI
                     benefits. However, this law does not provide DOL or the OIG with access to
                     the National Directory of New Hires. Moreover, access to SSA and UI data
                     would allow the Department to measure the long-term impact of employment
                     and training services on job retention and earnings. Outcome information of
                     this type for program participants is otherwise difficult to obtain.


        Amend Pension Protection Laws
                     Legislative changes to ERISA and criminal penalties for ERISA violations
                     would enhance the protection of assets in pension plans. To this end, the
                     OIG recommends the following:
                         •   Expand the authority of EBSA to correct substandard benefit
                             plan audits and ensure that auditors with poor records do not
                             perform additional plan audits. Changes should include providing
                             EBSA with greater enforcement authority over registration,
                             suspension, and debarment and the ability to levy civil penalties
                             against employee benefit plan auditors. The ability to correct
                             substandard audits and take action against auditors is important
                             because benefit plan audits help protect participants and beneficiaries
                             by ensuring the proper value of plan assets and computation of
                             benefits.



Semiannual Report to Congress                                                                    39
April 1, 2005–September 30, 2005
         Legislative
      Recommendations

                         •   Repeal ERISA’s limited-scope audit exemption. This provision
                             excludes pension plan assets invested in banks, savings and loans,
                             insurance companies, and the like from audits of employee benefit
                             plans. The limited scope prevents independent public accountants
                             who are auditing pension plans from rendering an opinion on the
                             plans’ financial statements in accordance with professional auditing
                             standards. These “no opinion” audits provide no substantive
                             assurance of asset integrity to plan participants or to the Department.

                         •   Require direct reporting of ERISA violations to DOL. Under
                             current law, a pension plan auditor who finds a potential ERISA
                             violation is responsible for reporting it to the plan administrator, but
                             not directly to DOL. To ensure that improprieties are addressed, we
                             recommend that plan administrators or auditors be required to report
                             potential ERISA violations directly to DOL. This would ensure the
                             timely reporting of violations and would more actively involve
                             accountants in safeguarding pension assets, providing a first line of
                             defense against abuse of workers’ pension plans.

                         •   Strengthen criminal penalties in Title 18 of the United States
                             Code. Three sections of Title 18 serve as the primary criminal
                             enforcement tools for protecting pension plans covered by ERISA.
                             Embezzlement or theft from employee pension and welfare plans is
                             prohibited by Section 664, making false statements in documents
                             required by ERISA is prohibited by Section 1027, and giving or
                             accepting bribes related to the operation of ERISA-covered plans is
                             outlawed by Section 1954. Sections 664 and 1027 subject violators to
                             5 years’ imprisonment, while Section 1954 calls for up to 3 years’
                             imprisonment. We believe that raising the maximum penalties to 10
                             years for all three violations would serve as a greater deterrent and
                             would further protect employee pension plans.

        Provide Authority to Ensure the Integrity of the
        Foreign Labor Certification Process
                     If DOL is to have a meaningful role in the H-1B specialty occupations foreign
                     labor certification process, it must have the statutory authority to ensure the
                     integrity of that process, including the ability to verify the accuracy of
                     information provided on labor condition applications. Currently, DOL is
                     statutorily required to certify such applications, unless it determines them to
                     be “incomplete or obviously inaccurate.” Our concern with the Department’s
                     limited ability to ensure the integrity of the certification process is heightened
                     by the results of OIG analysis and investigations that show that the program
                     is susceptible to significant fraud and abuse, particularly by employers and
                     attorneys.

                     Moreover, we believe that vulnerabilities in the foreign labor certification
                     programs administered by DOL and other agencies could be remedied by the
                     following changes.



Semiannual Report to Congress                                                                       40
April 1, 2005–September 30, 2005
         Legislative
      Recommendations

                         •   All foreign nationals should have an eligibility determination by the
                             U.S. Citizenship and Immigration Services before the employer’s labor
                             certification application is reviewed by DOL.
                         •   DOL should have latitude and authority to deny applications for any
                             misrepresentations or suspected fraud.
                         •   Applications should be alien-specific.
                         •   Foreign labor certifications should have an expiration date.
                         •   The sale, barter, and/or purchase of approved labor certifications and
                             applications by an employer, alien, agent, attorney, or otherwise
                             interested party should be prohibited and vigorously prosecuted.

        Enhance the WIA Program Through Reauthorization
                     The reauthorization of the Workforce Investment Act (WIA) provides an
                     opportunity to revise WIA programs to better achieve their goals. Based on
                     our audit work, the OIG recommends the following:
                         •   Improve state and local reporting of WIA obligations. A
                             disagreement between ETA and the states about the level of funds
                             available to states drew attention to the way WIA obligations and
                             expenditures are reported. The OIG’s prior work in nine states and
                             Puerto Rico showed that obligations provide a more useful measure
                             for assessing states’ WIA funding status if obligations accurately
                             reflect legally committed funds and are consistently reported.

                         •   Modify WIA to encourage the participation of training providers.
                             WIA participants use individual training accounts to obtain services
                             from approved eligible training providers. However, performance
                             reporting and eligibility requirements for training providers have made
                             some potential providers unwilling to serve WIA participants.

                         •   Support amendments to resolve uncertainty about the release of
                             WIA participants’ personally identifying information for WIA
                             reporting purposes. Some training providers are hesitant to disclose
                             participant data to states for fear of violating the Family Education
                             Rights and Privacy Act.

                         •   Strengthen incumbent worker guidance to states. Currently no
                             Federal criteria define how long an employer must be in business or
                             employee must be employed to qualify as an incumbent worker; and
                             no Federal definition of “eligible individual” exists for incumbent
                             worker training. Consequently, a state could decide that any employer
                             or employee can qualify for a WIA-funded incumbent worker program.

        Improve the Integrity of the FECA Program
                     The OIG continues to support reforms to improve the integrity of the FECA
                     program. Implementing the following changes would result in significant
                     savings for the Federal government:



Semiannual Report to Congress                                                                    41
April 1, 2005–September 30, 2005
         Legislative
      Recommendations

                         •   Move claimants into a form of retirement after a certain age if they are
                             still injured.
                         •   Return a 3-day waiting period to the beginning of the 45-day
                             continuation-of-pay process to require employees to use accrued sick
                             leave or leave without pay before their benefits begin.
                         •   Grant authority to DOL to directly and routinely access Social Security
                             wage records in order to identify claimants defrauding the program.




Semiannual Report to Congress                                                                     42
April 1, 2005–September 30, 2005
                Appendix

Appendix
Requirements Under the Inspector General Act of 1978

Section 4(a)(2)—Review of Legislation and Regulation ............................................................. 39

Section 5(a)(1)—Significant Problems, Abuses, and Deficiencies.............................................. All

Section 5(a)(2)—Recommendations with Respect to Significant
Problems, Abuses, and Deficiencies ......................................................................................... All

Section 5(a)(3)—Prior Significant Recommendations on Which
Corrective Action Has Not Been Completed............................................................................... 49

Section 5(a)(4)—Matters Referred to Prosecutive Authorities .................................................... 51

Section 5(a)(5) and Section 6(b)(2)—Summary of Instances Where
Information Was Refused ...................................................................................................... None

Section 5(a)(6)—List of Audit Reports ....................................................................................... 46

Section 5(a)(7)—Summary of Significant Reports ..................................................................... All

Section 5(a)(8)—Statistical Tables on Management Decisions on Questioned Costs ............... 45

Section 5(a)(9)—Statistical Tables on Management Decisions on
Recommendations That Funds Be Put to Better Use ................................................................. 44

Section 5(a)(10)—Summary of Each Audit Report Over Six Months Old for
Which No Management Decision Has Been Made ..................................................................... 49

Section 5(a)(11)—Description and Explanation for Any Significant Revised
Management Decision ........................................................................................................... None

Section 5(a)(12)—Information on Any Significant Management Decisions with
Which the Inspector General Disagrees ................................................................................ None




Semiannual Report to Congress                                                                                                    43
April 1, 2005–September 30, 2005
                                                                    Funds Put to Better Use
             Appendix


                                      Agreed to by DOL
                                                                    Number of   Dollar Value
                                                                      Reports    ($ millions)
For which no management decision had been made as of the                    1          428.0
commencement of the reporting period
Issued during the reporting period                                          2           41.7
        Subtotal                                                                       469.7
For which management decision was made during the reporting                 0            0.0
period:
  •   Dollar value of recommendations that were agreed to by                             0.0
      management
  •   Dollar value of recommendations that were not agreed to by                         0.0
      management
  For which no management decision had been made as of the                             469.7
  end of the reporting period



                                     Implemented by DOL
                                                                    Number of   Dollar Value
                                                                      Reports    ($ millions)
For which final action had not been taken as of the commencement            5            12.7
of the reporting period
For which management or appeal decisions were made during the               0            0.0
reporting period

        Subtotal                                                                        12.7

For which final action was taken during the reporting period:
  •   Dollar value of recommendations that were actually                                 7.0
      completed
  •   Dollar value of recommendations that management has
      subsequently concluded should not or could not be
      implemented or completed
For which no final action had been taken by the end of the period           4            5.7




Semiannual Report to Congress                                                             44
April 1, 2005–September 30, 2005
                                                                             Resolution Activity Related to
               Appendix                                            Inspector General Issued Audit Reports



                                                Questioned Costs
                                                                                        Number of           Disallowed
                                                                                          Reports                Costs
                                                                                                            ($ millions)
For which no management decision had been made as of the                                           43               24.0
commencement of the reporting period (as adjusted)
Issued during the reporting period                                                                 26               11.0
          Subtotal                                                                                 69               35.0
For which a management decision was made during the reporting
period:
     •   Dollar value of disallowed costs                                                                             6.3

     •   Dollar value of costs not disallowed                                                                         4.3
For which no management decision had been made as of the end                                       38               24.4
of the reporting period
For which no management decision had been made within six                                                           13.5
months of issuance



                                                 Disallowed Costs
                                                                                        Number of           Disallowed
                                                                                          Reports                Costs
                                                                                                            ($ millions)
For which final action had not been taken as of the commencement                                   63            139.0
of the reporting period (as adjusted)*
For which management or appeal decisions were made during the                                      27                 6.9
reporting period
         Subtotal                                                                                  90              145.9
For which final action was taken during the reporting period:**
     •   Dollar value of disallowed costs that were recovered                                                      123.0

     •   Dollar value of disallowed costs that were written off by                                                    1.1
         management
For which no final action had been taken by the end of the                                                          21.8
reporting period

*         Partial recovery/write-offs are reported in the period in which they occur. Therefore, many audit reports will
          remain open awaiting final recoveries/write-offs to be recorded.
**        Does not include $15.6 million of disallowed costs that are under appeal.




Semiannual Report to Congress                                                                                          45
April 1, 2005–September 30, 2005
                                                                    Final Audit and Attestation Reports Issued
                        Appendix


                  Program Name                          Date         Report          # of Nonmonetary Questioned Funds Put to
                  Name of Report                       Issued        Number          Recommendations    Costs     Better Use
                                                                                                         ($)          ($)
                                                       Employment and Training
Veterans Employment and Training
Single Audit: Veterans Benefits Clearinghouse, Inc       09/26/05 21-05-530-02-001          5
United States Employment Service
Single Audit: National Government of Federated States
                                                         07/08/05 21-05-527-03-320          3
of Micronesia
Trade Adjustment Assistance Program
Performance Audit of Health Coverage Tax Credit Bridge
                                                         09/30/05 02-05-204-03-330          18                      36,711,035
and Gap Programs
Government Performance Results Act Data Validation–
                                                         09/15/05 22-05-007-03-330          2
Trade Adjustment Assistance
Job Corps Program
San Diego Job Corps Center: Student Attendance and
                                                         09/30/05 09-05-004-03-370          5             597,608
Training Data Overstated
Welfare–to–Work Program
Complaint Involving the Goodwill Industries of Lower
                                                         07/07/05 04-05-001-03-386          2              65,597
South Carolina, Inc.
Performance Audit of City of Savannah, Georgia PYs
                                                         09/30/05 04-05-004-03-386          1           2,856,430
1998 and 1999 WtW Competitive and Formula Grants
Single Audit: The Welfare to Work Partnership, Inc.      09/26/05 21-05-538-03-386          6              17,775
Single Audit: The Seminole Nation of Oklahoma.           09/23/05 21-05-553-03-386          2              10,434
Workforce Investment Act
WIA NEG to Chinatown Manpower Project, Inc.              09/02/05 02-05-203-03-390          5
Complaint Involving Adults Mankind Organization, Inc.,
                                                         07/19/05 04-05-002-03-390
Miami, Florida
New Mexico DOL Improperly Charged UI Costs to Its
                                                         09/30/05 06-05-005-03-390          1           1,648,018
WIA Rapid Response Program
State of Texas Has Effectively Implemented the One–
                                                         09/30/05 06-05-007-03-390
Stop Seamless Service Concept
State of Washington Implemented a Decentralized
                                                         09/28/05 06-05-010-03-390
Approach in the One–Stop Seamless Service Concept
Two of Illinois One–Stop Centers Have Not Fully
                                                         09/30/05 06-05-011-03-390
Implemented the Seamless Service Concept
Insufficient Federal Guidance Could Result in Misuse of
                                                         09/30/05 06-05-020-03-390          3
Incumbent Worker Training Program Funds
Single Audit: Salt River Pima Maricopa Indian
                                                         07/17/05 21-05-502-03-390          7
Community
Single Audit: Government of Guam– FY 2003                09/27/05 21-05-503-03-390          3             185,584
Single Audit: Government of Guam–FY 2004                 09/23/05 21-05-506-03-390          7             289,027
Single Audit: Trimmer Education Foundation, Ltd          04/02/05 21-05-508-03-390          1              10,304
Single Audit: City and County of Denver, Colorado        04/02/05 21-05-522-03-390          1             467,460
Single Audit: San Carlos Apache Tribe Workforce
                                                         07/11/05 21-05-528-03-390          3
Investment Act Program
Single Audit: State of West Virginia                     09/09/05 21-05-531-03-390          6              14,715
Single Audit: Seattle Indian Center                      09/13/05 21-05-533-03-390          6
Single Audit: State of Nebraska                          09/13/05 21-05-535-03-390          1             458,965
Single Audit: Commonwealth of Puerto Rico Human
                                                         07/08/05 21-05-540-03-390          2
Resources
Single Audit: Commonwealth of Kentucky–FY 2004           09/13/05 21-05-548-03-390          2
Single Audit: State of Hawaii Labor and Industry Quality
                                                         09/29/05 21-05-549-03-390
Control Review
Single Audit: Seminole Nation of Oklahoma–FY 2003        09/14/05 21-05-555-03-390          6
Single Audit: Powhatan Renape Nation                     09/26/05 21-05-556-03-390          9               1,000
Single Audit: Oglala Sioux Tribe                         09/28/05 21-05-560-03-390          6              62,851




 Semiannual Report to Congress                                                                                             46
 April 1, 2005–September 30, 2005
                                                                      Final Audit and Attestation Reports Issued
                         Appendix

                   Program Name                           Date         Report       # of Nonmonetary Questioned Funds Put to
                   Name of Report                        Issued        Number       Recommendations    Costs     Better Use
                                                                                                        ($)          ($)
Bureau of Labor Statistics
Compliance with Federal and DOL Security Standards in
                                                        09/28/05 23-05-011-11-001
Selected Control Areas for two BLS Systems
FISMA Audit of the Employment Cost Index System         09/30/05 23-05-018-11-001            5
Goal Totals                                                             33                  118        6,685,768   36,711,035
                                                         Worker Benefits
Unemployment Insurance Program
Audit of Georgia DOL’s Costs Charged to U.S. DOL
                                                          08/30/05 03-05-002-03-315
Grant for the State FYs 1999–2001
Use of IRS Form 1099 Data to Identify Misclassified
                                                          09/30/05 03-05-005-03-315         3
Workers
Single Audit: State of Michigan Department of Consumer
                                                          09/26/05 21-05-559-03-315         6              3,572
and Industry Services
Single Audit: Government of the United States Virgin
                                                          09/29/05 21-05-561-03-315         13
Islands
FISMA Audit of the Massachusetts UI Benefits and
                                                          09/30/05 23-05-007-03-315         34
Review System
FISMA Audit of the State of Texas UI and Tax System       09/28/05 23-05-019-03-315         27
State Employment Security Agency
Single Audit: Commonwealth of Kentucky–FY 2004            09/27/05 21-05-537-03-325         12
Federal Employees’ Compensation Act
GPRA Audit–FECA                                           09/27/05 22-05-008-04-431         1
Longshore and Harbor Workers Compensation
Longshore and Harbor Workers’ Compensation Act
                                                          09/30/05 22-05-010-04-432         1
Special Fund
District of Columbia Workmen’s Compensation Act
                                                          09/30/05 22-05-011-04-432
Special Fund
Employee Benefit Security Agency
EBSA Should Mandate Electronic Filing of the Form
                                                          09/30/05 09-05-002-12-121         2                       5,000,000
5500 to Improve Data Accuracy
Goal Totals                                                                11               99             3,572    5,000,000
                                              Worker Safety, Health, and Workplace Rights
Bureau of International Labor Affairs
Jesus Cares Ministries Reducing Child Labor Through
                                                          09/08/05 03-05-001-01-070         6            157,710
Education
Single Audit: Vital Voices Global Partnership             09/26/05 21-05-550-01-070         11
Mine Safety and Health
Compliance with Federal and DOL Security Standards in
Selected Control Areas for Three Mine Safety and Health 09/28/05 23-05-013-06-001
Administration Systems
Occupational Safety and Health
Compliance with Federal and Departmental Security
Standards in Selected Control Areas for Three OSHA        09/30/05 23-05-014-10-001         3
Systems
Goal Totals                                                                 4               20           157,710
                                                      Departmental Management
Office of the Secretary
Departmental Involvement in Chinatown Manpower
Project, Inc., Contributed to Circumvention of            08/25/05 02-05-202-01-001         3
Procurement Rules
ETA Management
Single Audit: State of Rhode Island and Providence
                                                          04/02/05 21-05-504-03-001         3
Plantations
Single Audit: State of Arizona                            09/23/05 21-05-532-03-001          7         3,636,953
Single Audit: State of Wisconsin                          09/14/05 21-05-536-03-001         7
Single Audit: State of California                         07/13/05 21-05-539-03-390          3
Single Audit: State of Utah                               09/13/05 21-05-541-03-001         26            91,437


 Semiannual Report to Congress                                                                                            47
 April 1, 2005–September 30, 2005
                                                                        Final Audit and Attestation Reports Issued
                         Appendix

                   Program Name                            Date          Report       # of Nonmonetary Questioned Funds Put to
                   Name of Report                         Issued         Number       Recommendations    Costs     Better Use
                                                                                                          ($)          ($)
Single Audit: New Mexico Department of Labor              08/25/05   21-05-544-03-001        16
Single Audit: State of Tennessee                          09/26/05   21-05-545-03-001        16
Single Audit: The Navajo Nation                           09/14/05   21-05-546-03-001        14             68,962
Single Audit: State of Illinois                           09/28/05   21-05-551-03-001        12           211,996
Single Audit: State of Maine                              09/14/05   21-05-554-03-001         6
Single Audit: State of North Carolina–FY 2004             09/08/05   21-05-557-03-001        12              8,679
Single Audit: South Carolina Employment Security
                                                          09/29/05 21-05-562-03-001         12
Commission
Compliance with Federal and Departmental Security
Standards in Selected Control Areas for Five ETA          09/28/05 23-05-012-03-001
Systems
ESA Management
FISMA Audit of the Civil Money Penalty System             09/30/05 23-05-009-04-001         8
Compliance with Federal and Departmental Security
Standards in Selected Control Areas for Three ESA         09/28/05 23-05-015-04-001         4
Systems
OASAM Management
Compliance with Federal and Departmental Security
Standards in Selected Control Areas for Two OASAM         09/28/05 23-05-016-07-001         3
Systems
FISMA Audit of the Emergency Management Network           09/30/05 23-05-035-07-001         22
Office of the Chief Financial Officer
Allegations Concerning the Replacement of Systems
                                                          07/18/05 21-05-001-13-001
Furniture in OCFO
Independent Accountant’s Report on Agreed–Upon
Procedures for the Retirement, Health Benefits and Life
                                                          09/27/04 22-05-012-13-001
Insurance Withholdings/Contributions, and the March 31,
2005 Supplemental Semiannual Headcount Report
Multi Agency Programs
Single Audit: Worksystems, Inc.                           06/27/05 21-05-501-50-598         11
Single Audit: Commonwealth of Pennsylvania–FY 2003        04/02/05 21-05-505-50-598         11               8,392
Single Audit: Commonwealth of Pennsylvania–FY 2002        04/02/05 21-05-509-50-598          6               3,989
Single Audit: Michigan Department of Career
                                                          04/02/05 21-05-511-50-598         8                7,836
Development
Single Audit: State of Iowa                               04/02/05 21-05-517-50-598          7
Single Audit: AARP                                        04/02/05 21-05-525-50-598          3             42,730
Single Audit: State of North Carolina–FY 2003             06/27/05 21-05-529-50-598         53             48,923
DOL Needs to Perform Electronic Media Sanitization
                                                          09/30/05 23-05-028-50-598         4
More Effectively Prior to Transfer or Disposal
Goal Totals                                                                28              278           4,129,897

Report Totals                                                              76              514          10,976,947   41,711.035




 Semiannual Report to Congress                                                                                              48
 April 1, 2005–September 30, 2005
                                                     Unresolved Audit Reports Over Six Months Old
                      Appendix


   Agency/       Date                                                                           # of      Questioned
                                          Name of Audit                    Report Number
   Program      Issued                                                                     Recommendations Costs ($)
                                    Nonmonetary Recommendations and Questioned Costs
                       Being Resolved in Conjunction with DOL-Consolidated Financial Statement Audit
CFO/Admin     02/27/98 FY 1997 Consolidated Financials                           12-98-002-13-001     1
CFO/Admin     02/29/00 FY 1999 DOL Consolidated Financial Statement              12-00-003-13-001     2
CFO/Admin     03/27/02 DOL Consolidated Financial Statement Findings and         22-02-004-13-001     1
                        Recommendations
CFO/Admin     03/31/04 Performance and Accountability Audit, CFO Findings and 22-04-002-13-001        2
                        Recommendations
             Final Management Decision Issued by Agency Did Not Resolve; OIG Negotiating with Program Agency
ETA/JTPA      09/25/98 Cherokee Nation                                           06-98-009-03-340     1
ETA/OJC       09/22/99 Talking Leaves Job Corps Center                           06-99-010-03-370     9
ETA/UIS       04/17/00 Single Audit: State of Louisiana                          18-00-534-03-315     2
ETA/SESA      12/08/99 Puerto Rico Department of Labor and Human Resources 02-00-203-03-325           6
ETA/SESA      08/23/00 Single Audit: State of Florida                            12-00-514-03-325     1
ETA/JTPA      09/29/00 Single Audit: Commonwealth of Kentucky 1998               12-00-528-03-340     4
                        State of Maryland Workforce Agency UI Tax and Benefit
ETA/UIS       09/13/02                                                           23-02-008-03-315    14
                        Information System
ETA/UIS       09/13/02 UI Tax and Benefit Information System Security–ETA        23-02-009-03-315     9
CFO/Admin     12/19/02 DOLAR$ Application Control Review                         23-02-003-13-001     3
DOL/Multi     08/06/02 Single Audit: State of Florida                            22-02-512-50-598     1        38,799
VETS/Admin    09/22/03 GISRA Audit: VETS                                         23-03-012-02-001     8
ETA/Admin     05/28/03 Single Audit: State of Louisiana                          22-03-502-03-001     2
ETA/UIS       09/30/03 Improved Quality Control Practices Within the Benefit     22-03-009-03-315     3
                        Accuracy Measurement System Could Save the UI Trust
                        Fund Approximately $400 Million Annually
ETA/UIS       03/11/03 UI Tax and Benefit Information System Security–Michigan 23-03-003-03-315      53
ETA/UIS       02/27/03 UI Tax and Benefit Information System Security–California 23-03-005-03-315     1
ETA/WIA       09/29/03 Single Audit: State of Utah                               22-03-528-03-390     1
MSHA/Admin    09/22/03 GISRA Audit: Imaging Management System                    23-03-011-06-001     1
                        Evaluation of OSHA’s Handling of Immigrant Fatalities in
OSHA/Admin    09/30/03                                                           21-03-023-10-001     1
                        the Workplace
BLS/Admin     03/31/03 2002 GISRA Audit of BLS–CES                               23-03-001-11-001     1
BLS/Admin     09/22/03 GISRA Audit of the Bureau of Labor Statistics–CPS         23-03-013-11-001     3
ETA/Admin     03/18/04 Single Audit: New Mexico Department of Labor              22-04-514-03-001    40        373,369
ETA/Admin     05/05/04 Single Audit: Navajo National Tribal Entities             22-04-544-03-001     6
ETA/Admin     09/30/04 Single Audit: SEIU Training and Upgrading                 22-04-567-03-001     1
ESA/Admin     09/30/04 Audit of General Application and Security Controls for
                        Selected ESA IT Systems that Support the Financial       23-04-024-04-001     4
                        Statements FY 2004
ETA/Admin     03/22/05 Single Audit: Oglala Sioux Tribe                          21-05-500-03-001     1
ETA/UIS       03/23/05 Single Audit: Government of the U.S. Virgin Islands       21-05-516-03-315     1
                                    Final Management Decision Being Evaluated by the OIG
ETA/Admin     05/29/03 Single Audit: State of Rhode Island                       22-03-514-03-001     2        340,000
OSEC/OALJ     09/09/04 FISMA Audit OALJ WAN                                      23-04-013-01-060     1
OSEC/OALJ     09/09/04 FISMA Audit OALJ CTS                                      23-04-014-01-060     1
                        Audit of General Application and Security Controls for
ETA/Admin     09/30/04                                                           23-04-023-03-001    38
                        Selected ETA IT Systems
ETA/UIS       09/30/04 FISMA Audit–Missouri UI Tax and Benefit System            23-04-016-03-315     2
ETA/UIS       09/30/04 FISMA Audit–Washington UI Tax and Benefit System          23-04-017-03-315     1
ETA/UIS       09/30/04 FISMA Audit–Florida UI Tax and Benefit System             23-04-018-03-315     1
ETA/UIS       09/30/04 FISMA Audit–ETA UI Interstate Connection Network          23-04-027-03-315     9
                        Audit of General Application and Security Controls for
MSHA/Admin    09/30/04 Selected MSHA IT Systems that Support the Financial       23-04-019-06-001     5
                        Statements FY 2004
                        OSHA Future System Development Efforts Require
OSHA/Admin    09/30/04                                                           23-04-009-10-001     4
                        Greater Use of Best Practices
EBSA/Admin    09/30/04 FISMA Audit –EBSA’s ERISA EFAST                           23-04-011-12-001    22




Semiannual Report to Congress                                                                                      49
April 1, 2005–September 30, 2005
                                                         Unresolved Audit Reports Over Six Months Old
                      Appendix

   Agency/       Date                                                                             # of      Questioned
                                               Name of Audit                 Report Number
   Program      Issued                                                                       Recommendations Costs ($)
                      Award and Management of Contracts for Encryption
OASAM/DIRM 03/31/05                                                               05-05-005-07-720  7
                      Software Were Significantly Flawed
BLS/Admin   03/22/04 FISMA Audit–Bureau of Labor Statistics–CPI                   23-05-005-11-001  4
                      Audit of General Application and Security Controls–Office
CFO/Admin   10/08/04                                                              23-05-002-13-001  4
                      of the Chief Financial Officer
DOL/Multi   03/25/05 Single Audit: State of Florida                               21-05-526-50-598  1
           Final Management Decision Not Yet Issued–Agency Awaiting Response from Internal Revenue Service
EBSA        03/29/02 Improved Oversight of Cash Balance Plan Lump Sum             09-02-001-12-121  2
                      Distributions Is Needed
                                    Final Management Decision Not Yet Issued by Agency
ETA/WIA     09/30/03 Services Provided and Outcomes Obtained for                  02-03-204-03-390 10
                      Participants Enrolled In the WIA Dislocated Workers
                      Program During Program Year 2000
ETA/WIA     09/30/03 Evaluation of WIA Youth Program                              06-03-006-03-390  1
                      Rehabilitation Services and Veterans Programs,
VETS/Admin 12-04/03                                                               06-04-001-02-001  2       1,593,700
                      Albuquerque, New Mexico
VETS/Admin 04/30/04 Single Audit: U.S. Veterans Initiatives                       22-04-508-02-201  1
ETA/Admin    08/31/04 Single Audit: State of West Virginia                        22-04-516-03-001  8
ETA/Admin    08/31/04 Single Audit: State of Montana                              22-04-545-03-001  7         57,000
                      New Hires Detection is a Better Method for Establishing UI
ETA/UIS     09/30/04                                                              05-04-002-03-315  3
                      Overpayments than the Wage UI/Benefit Crossmatch
ETA/UIS     08/31/04 Single Audit: State of Rhode Island                          22-04-561-03-315  7        175,715
                      Restoring Section 245(i) of the Immigration and Nationality 06-04-004-03-321
                      Act Created A Flood of Poor Quality Foreign Labor
ETA/FLC     09/30/04                                                                                2
                      Certification Applications Predominantly for Aliens Without
                      Legal Work Status
ETA/SESA    03/31/04 Evaluation of North Carolina Growers Association             04-04-008-03-325  4
                      Despite Assurances to the Contrary DOL Has Not              06-04-002-03-325
ETA/SESA    09/30/04 Maintained Accountability Over Equity in Real Property                         8
                      Held By States
                      State Workforce Agencies’ WIA Grant Programs Are            06-04-003-03-325
ETA/SESA    09/30/04                                                                                1
                      Accruing Federal Equity in Real Properties
                      Performance Audit of South Florida Workforce Board WtW 04-04-002-03-386
ETA/WTW     09/30/04                                                                                7       8,406,966
                      Formula Grant
ETA/WIA     08/16/04 Single Audit: Council of Southern West Virginia              22-04-527-03-390  2
ETA/Admin    02/08/04 Single Audit: California State University                   22-05-541-03-001  2        20,000
                      San Francisco Regional Office May Be Certifying
ETA/FLC     03/29/05 Inaccurate, Deficient or Possibly Fraudulent Applications 06-05-001-03-321     1
                      for Foreign Labor Certification
ETA/WIA     03/31/05 Allegation Regarding ETA Funds Granted to Arkansas           06-05-002-03-390  2       1,207,490
VETS/Admin 03/24/05 Single Audit: State of Florida                                21-05-523-02-001  2        245,226
ETA/WIA     02/08/05 Single Audit: Commonwealth of Puerto Rico                    22-05-525-03-390  2
ETA/WIA     02/08/05 Single Audit: State of Illinois                              22-05-536-03-390  5
                      MSHA Procurements Showed a Pattern of Disregard for
MSHA/Admin 10/29/04                                                               25-05-001-06-001  1
                      Federal and DOL Acquisition Rules and Requirements
DOL/Multi   03/22/05 Single Audit: Government of Guam                             21-05-518-50-598  7        971,770
DOL/Multi   03/25/05 Single Audit: Automotive Youth Educational, Inc              21-05-524-50-598  2
DOL/Multi   03/22/05 Single Audit: State of Washington                            22-05-522-50-598  4         86,117
Total Nonmonetary Recommendations and Questioned Costs                                             378     13,516,152
                                                        Cost Efficiencies
ETA/UIS     09/30/03 Improved Quality Control Practices Within the Benefit        22-03-009-03-315  1      428,000,000
                      Accuracy Measurement System Could Save the UI Trust
                      Fund Approximately $400 Million Annually

Total Nonmonetary Recommendations, Questioned Costs, and Cost Efficiencies                          1       428,000,000
Total Audit Exceptions and Cost Efficiencies                                                       379      441,516,152




Semiannual Report to Congress                                                                                     50
April 1, 2005–September 30, 2005
                                                                Investigative Statistics
            Appendix



                                                      Division Totals             Totals
Cases Opened:                                                    185
   Program Fraud                                                  56                241
   Labor Racketeering

Cases Closed:
   Program Fraud                                                 187
   Labor Racketeering                                             77                264

Cases Referred for Prosecution:
   Program Fraud                                                 143
   Labor Racketeering                                            206                349

Cases Referred for Administrative/Civil Action:
   Program Fraud                                                 110
   Labor Racketeering                                             63                173

Indictments:
   Program Fraud                                                 149
   Labor Racketeering                                            204                353

Convictions:
  Program Fraud                                                   68
  Labor Racketeering                                             114                182

Debarments:
   Program Fraud                                                  10
   Labor Racketeering                                             35                  45

Recoveries, Cost Efficiencies, Restitutions, Fines/
Penalties, Forfeitures, and Civil Monetary Actions:
   Program Fraud                                         $10,103,864
   Labor Racketeering                                   $172,546,338      $182,650,202




Semiannual Report to Congress                                                          51
April 1, 2005–September 30, 2005
                                                                         Investigative Statistics
            Appendix


Recoveries:                                                                            $1,618,623
(The dollar amount/value of an agency’s action to recover or reprogram
funds or to make other adjustments in response to OIG investigations)


Cost Efficiencies:                                                                     $6,046,176
(The one-time or per-annum dollar amount/value of management’s
commitment, in response to OIG investigations, to utilize the
government’s resources more efficiently)

Restitutions:                                                                       $173,849,737
(The dollar amount/value of restitutions resulting from OIG criminal
investigations)


Fines/Penalties:                                                                         $898,666
(The dollar amount/value of fines, assessments, seizures,
investigative/court costs, and other penalties resulting from OIG criminal
investigations)

Civil Monetary Actions:                                                                  $237,000
(The dollar amount/value of forfeitures, settlements, damages,
judgments, court costs, or other penalties resulting from OIG civil
investigations)

Total                                                                               $182,650,202




Semiannual Report to Congress                                                                   52
April 1, 2005–September 30, 2005
                                                                           Investigative Case List
            Appendix

                                                     Convicted Sentenced    Monetary
                                         Foreign Labor Certification
                  Akhter, Naveed                                     X          $600
                  Ali, Zulfiqar                                      X       $45,000
                  Aliffin, Johnson                                   X       $10,100
                  Bajwa, Mohammad                       X
                  Balsirow, Bemba                       X
                  Bennett, Marian                                    X
                  Carvalho-Silva, Renato                             X
                  Desouza, Joao                                      X          $100
                  Dizon, Marlyn                          X
                  Dzikanyan, Andranik                   X
                  Dzikanyan, Maria                      X
                  Etienne-Nugent, Carine                X            X         $100
                  Gandasaputra, Jenny                                X       $25,200
                  Gandasaputra, Megawaty                             X      $100,300
                  Gani, Joandi                          X            X          $100
                  Gouw, Hans                            X            X      $300,400
                  Gouw, Isanyanti                                    X       $50,200
                  Hivale-Jones, Veena                   X
                  Hussain, Jamal                                     X
                  Ivanchukov, Naran                     X
                  Jia, Alice                                         X        $1,600
                  Jeanty, Marc                                       X          $100
                  Karimi, Ramzan                        X            X        $3,000
                  Kumala, Nany                                       X       $20,100
                  LaTorre, Angel                        X            X          $100
                  Makey, Aleksey                         X
                  Makey, Svetlana                       X
                  Mbengue, Knady                         X
                  Mir, Maqsood                          X            X       $25,000
                  Mir Law Associates                                 X      $200,000
                  Moreira, Marcelo                                   X       $28,882
                  Nascimento, Norton                                 X          $100
                  Nystrom, Eric                                      X      $313,923
                  Pappadakis, Michelle                  X
                  Parera, Brigitta                      X            X          $100
                  Preus, Pavel                           X
                  Shaikh, Nuruddin                      X            X          $500
                  Susanto, Danny                                     X        $5,000
                  Tam, Chui                             X            X        $2,100
                  Tanudjaya, Sari                                    X       $15,100
                  Ticoalu, Johannis                     X            X          $100
                  Tsui, George                          X
                  Vasconi, Angelo                                    X          $100
                  Veliev, Elnur                         X
                  Vera, Luz                             X            X        $3,158
                  Vinnett, Ruben                        X            X       $40,750
                  Warong, Albert                                     X       $20,100
                  Wingerter, Rex                        X
                                                        27           33    $1,211,913
                                           Employee Misconduct
                  Ackers, Joshua                         X           X        $5,956




Semiannual Report to Congress                                                                    53
April 1, 2005–September 30, 2005
                                                                         Investigative Case List
            Appendix

                                                 Convicted   Sentenced    Monetary
                  Gayle, Marjorie                    X           X           $100
                  Giametta, Maria                    X           X           $100
                  Miller, Danny                      X
                                                     4          3           $6,156
                                          ESA: Black Lung
                  "Pre-Trial Diversion"              X          X
                  Carroll, Herbert                   X
                  Connor, Carole                                X          $71,199
                  Davis, Otis                       X
                  Davis, Susie                      X
                  Helmick, Pamela                   X
                  Hisle, James                      X
                  Hisle, Susan                      X
                  Rollins, Patricia                 X
                  Scott, Trena                      X
                  Watts, Robert                                 X         $151,450
                                                    9           3         $222,649
                                            ESA: FECA
                  Adams, Clarence                               X          $13,913
                  Barnard, Lovie                                X           $5,720
                  Barker, Robert                     X
                  Coulson, Andrea                    X
                  Crawford, Maggie                              X          $21,300
                  Crawford, Marc                     X
                  Distasio, Romeo                               X          $64,463
                  Dixon, Danny                       X
                  Figueroa, Luis
                  Ford, Johnny                      X
                  Grace, Anthony                                X          $15,841
                  Hobbs, Roger                      X           X             $917
                  Holtz, Timothy                                X          $32,122
                  Knox, Cecil, M.D.                  X
                  Kortright, John                               X           $4,993
                  Krasilinec, Michal                            X          $36,549
                  Lee, John Karl                    X           X         $559,966
                  Lima, William                     X           X          $64,907
                  Merritt, Lena                                 X          $14,070
                  Mross, Catherine                  X           X            $400
                  Podgers, Susan                                X          $57,472
                  Pringle, Lamar                                X         $259,196
                  Ross, Joan                                    X          $53,005
                  Schreiber, Mary Ellen                         X         $154,111
                  Skahen, Bradley                               X           $2,907
                  Smith, Clayton                    X
                  Stillley, David                   X           X          $28,677
                  Tribble, Brian                                X          $94,682
                  Tyczynski, Janey                  X
                                                   13           20       $1,485,211
                                          ESA: Longshore
                  Holloway, William                 X           X           $6,578
                                                    1           1           $6,578




Semiannual Report to Congress                                                                  54
April 1, 2005–September 30, 2005
                                                                            Investigative Case List
            Appendix

                                                      Convicted Sentenced     Monetary
                                              ESA: Wage and Hour
                  Booker, Valon                           X
                  Botello, Elias                                    X           $6,067
                  Breiding, Dennis                        X         X          $10,100
                  Garcia, Jose I.                                   X             $100
                  Garcia, Jose J.                                   X             $100
                  Garcia, Maria                                     X            $358
                  Gorges, Edward                                    X             $100
                  Gregorek, Robert                                  X            $100
                  Leibovitch, Avner                                 X           $5,100
                  Sandor, Andrew                                    X             $100
                  Singh, Joginder                         X         X          $50,100
                  Singh, Rajinder                         X         X          $25,100
                  Woods, Donte                            X         X
                                                          5         12         $97,325
                                       ETA: Unemployment Insurance/SWA
                  Antila, Martti                                    X         $103,023
                  Benjamin, Ryneh                                   X
                  Bernard, Yvonne                         X
                  Bryant, Nancy                           X         X          $24,502
                  Cardenas-Hernandez, Agustin             X
                  Clem, Jonathan                          X
                  Douglas, Eddie                          X         X           $5,251
                  G. E. Robinson Company, Inc.                      X          $69,042
                  Gilley, Marshall                                  X          $69,323
                  Green, Stanley                                    X         $172,163
                  Gutierrez, Luis, Jr.                    X         X         $558,894
                  Hale, Melvin                            X         X          $13,961
                  Herrera, Roganciano                     X
                  Jackson, Antwane                        X
                  Jacobsen, Jerrett                       X         X          $56,662
                  Johnson, Paul                           X         X          $12,101
                  Lopez, Lorenzo                          X         X          $10,895
                  Lozano, Ismael                          X
                  Mallory, Charles                        X         X           $10,163
                  Mandujano, Antonio                                X        $8,837,237
                  Marroquin, Marcelo                                X         $697,559
                  McCabe, Patrick                         X         X            $7,460
                  Ramirez, Josue                          X         X              $625
                  Ramirez-Cuna, Edilberto                           X              $100
                  Redman, Veronica                        X         X           $11,200
                  Sanders, Tenaia                                   X           $17,522
                  Slaughter, John                         X
                  Smith, Reginald                         X         X           $5,966
                  Sullo, Algano                           X         X           $6,590
                  Tate, Deborah                           X         X          $14,919
                  Taylor, Rodney                                    X          $12,409
                  Tomasso, James                          X         X          $24,791
                  Truszkowski, Walter                     X
                  Wingo, Irene                            X         X            $3,485
                  Worjloh, Wilson                         X         X            $4,053
                                                         25         27      $10,749,896




Semiannual Report to Congress                                                                     55
April 1, 2005–September 30, 2005
                                                                        Investigative Case List
            Appendix

                                                Convicted   Sentenced     Monetary
                                            ETA: JTPA
                  Robinson, Steven                             X           $27,619
                                                    0          1           $27,619
                                             ETA: WIA
                  "Pre-Trial Diversion"             X          X           $12,520
                                                    1          1           $12,520
                                              OSHA
                  Fotos, Constantine                           X            $5,000
                  Lee, Kang                          X
                                                      1        1            $5,000
                                            Benefit Plan
                  Bale, Walter                       X
                  Bondanza, John                               X
                  Boyd, Robert                                 X        $24,976,020
                  Bray, Ronald                                 X        $53,418,234
                  Cari, Joseph                       X
                  Cooke, Linda                                 X          $114,603
                  Feeback, David                     X         X           $89,615
                  "Sealed"                           X
                  Freeman, Stephen                             X          $266,100
                  Funny, Stephen                     X
                  Gaskell, Kimberly                            X           $25,611
                  Hewitt, Albert                     X
                  Hyde, John                                   X         $1,300,100
                  Johnson, Christi                             X            $20,600
                  Johnson, Michael                             X            $30,078
                  Joyce, Robert                                X          $462,466
                  Kenney, Michael                    X
                  Kiferbaum, Jacob                   X
                  Klinger, Joseph                    X         X            $15,851
                  Lambka, Dennis                               X        $53,418,234
                  Longworth, James                   X
                  Loren, Steven                      X
                  Maguire, Patrick                   X
                  Malvestuto, Robert, Jr.            X
                  Nannenga, Gerry                              X           $45,300
                  Nardone, Joseph, Jr.                         X          $223,200
                  Nardone, Joseph, Sr.                         X          $220,600
                  Raspino, Eliana                              X          $457,866
                  Respler, Jeffrey                             X
                  Rothman, Stanley                             X          $361,000
                  Ruth, Donald                       X
                  Rutledge, Aaron                    X
                  Rutledge, Anthony                  X
                  Sobel, Ira                         X
                  Stevenson, Ann                               X           $75,997
                  Tripodi, Vincent                             X
                  Valenza, John                      X
                  Whiting, Steven                    X
                  Wong, Peter                        X
                  Zander, Ben                        X
                  Zerth, Barbara                               X            $5,400




Semiannual Report to Congress                                                                 56
April 1, 2005–September 30, 2005
                                                                             Investigative Case List
            Appendix

                                                    Convicted   Sentenced       Monetary
                  Zerth, Richard                                    X          $688,326
                                                        21         23       $136,215,201
                                              Internal Union
                  Bell, Leslie                           X
                  Bellano, Steven                        X
                  Borrego, Jose                          X         X             $6,275
                  Cassarino, Primo                       X
                  Cernadas, Albert                       X
                  "Pre-Trial Diversion"                            X             $3,665
                  Davis, Arenia                                    X            $30,412
                  Dewitt, Deborah                       X
                  Donofrio, Joseph W.                              X
                  Duff, James                                      X         $20,991,805
                  Georeno, Dante                        X
                  Green, Gordon                                    X            $25,000
                  Hughes, Janice                        X
                  Leahy, John                                      X          $1,900,800
                  Lenardo, Joseph                                  X              $2,000
                  Marchito, Michael                                X               $500
                  Militello, Franklin                   X
                  Molfetta, Francis                     X          X             $20,200
                  Ruel, John                                       X             $25,652
                  Stratton, William                                X           $530,100
                  Toland, Wendell, Jr.                             X              $1,600
                  Wiesniewski, Edward                              X                $800
                  Williams, David                    X             X              $9,500
                                                     11            15        $23,548,309
                                          Labor Management
                  Aleks, Robert                                    X             $1,000
                  Alogna, Ignazio                       X
                  Alvarez, Robert                       X
                  Alvarez, Salvador                     X
                  Arthur Watson and Company                        X             $8,000
                  Barnes, Flenory                       X          X             $5,100
                  Bertino, Salvatore                    X
                  Boyle, John                           X
                  Brown, Willie                         X          X             $6,600
                  Buckley, Paul                                    X               $100
                  Campanella, John, Jr.                 X
                  Cannatello, John                      X
                  Carothers, Albert                     X
                  Cavaliere, Guerino                    X
                  Chetta, John                                     X            $10,000
                  Coveliers, Debra                      X
                  Coveliers, Richard                    X
                  Davison, Lawrence                     X
                  Dazle, Samuel                         X
                  Dellaccio, Dominick                   X
                  DiFlumera, Joseph                     X
                  Esposito, Ralph                       X          X             $5,000
                  Fernandez, Hector                                X
                  Fiore, Vincent                                   X             $6,000




Semiannual Report to Congress                                                                      57
April 1, 2005–September 30, 2005
                                                                    Investigative Case List
            Appendix

                                            Convicted   Sentenced    Monetary
                  Furina, Nicholas             X            X          $3,500
                  Gallo, Nicky                 X
                  Gonzalez, Joseph             X
                  Grecco, Gerard                           X           $5,000
                  Guglielmetti, Matthew        X           X             $200
                  Guzman, Jose                             X
                  Ignoffo, Joseph              X           X           $5,100
                  Klein, Richard               X           X          $15,000
                  Laino, Robert                X
                  Lee, Su                      X
                  Lee, Jae                     X
                  Martin, Jason                            X           $5,100
                  Mascio, Joseph               X
                  McDonagh, Martin                         X          $16,100
                  McGuire, Thomas                          X          $36,100
                  McKeown, Patrick             X
                  McMahon, Roger               X
                  McNamara, Thomas                         X          $54,000
                  Melia, Nicola                X
                  Miller, Eddie                X           X          $36,100
                  Muccio, Neal                             X           $2,600
                  Murphy, Daniel                           X         $300,000
                  Natale, Dennis               X           X          $19,700
                  Perez, Carlos                            X             $700
                  Perez, Lenin                 X
                  Peters, Commelie             X
                  Peters, Leroy                X
                  Quaranta, Anthony                        X          $18,100
                  Riccitelli, Victor                       X          $28,600
                  Romano, Charles              X           X           $4,100
                  Ruttura, Peter               X
                  Saah, Richard                            X          $34,095
                  Sachs, Louis                 X
                  Scivola, Alfred                          X           $4,000
                  Shomers, Andrew              X
                  Shrader, Timothy                         X          $12,100
                  Simpson, Edward              X
                  Son, Ricky                   X
                  Spatorico, Salvatore         X
                  Starsiak, Julie                          X
                  Stillo, Patrick              X
                  Terico, Richard                          X
                  Timpanaro, John              X
                  Timpano, Dominick                        X             $100
                  Tomascik, Andrew             X
                  Tomczak, Donald              X
                  Torres, Angelo                           X           $8,200
                  Tsiropoulos, Athanasios      X
                  Warren, Donald, Jr.          X           X          $10,350
                  Watts, Michael                           X           $5,000
                  Wesolowski, Gerald           X           X          $32,500
                                               50          37        $698,145




Semiannual Report to Congress                                                             58
April 1, 2005–September 30, 2005
                                                                    Investigative Case List
            Appendix

                                              Convicted Sentenced    Monetary
                                      Worker Exploitation
                  Almasri, Jamal                            X
                  "Sealed"                                  X          $2,000
                  Lee, Chris                                X          $1,000
                  "Sealed"                        X         X          $2,000
                  Pissanos, Dimitri               X
                  Rokeach, Michaeli               X
                  Trisanti, Mariska                         X        $205,389
                                                  3         5        $210,389




Semiannual Report to Congress                                                             59
April 1, 2005–September 30, 2005
                                                                                                               OIG Hotline Activity
                 Appendix

The OIG Hotline provides a communication link between the OIG and persons who want to
report alleged violations of law, rules, or regulations; mismanagement; waste of funds; abuse of
authority; or danger to public health and safety. During this reporting period, the OIG Hotline
received 2,037 contacts. Of these, 1,904 were referred for further review.

Allegation Reports by Source:
Calls, Correspondence, and Walk-ins from Individuals or Organizations ....................................1,993
Correspondence from Congress ........................................................................................................2
Correspondence from DOL Agencies ...............................................................................................10
Letters from Non-DOL Government Agencies ..................................................................................15
Incident Reports from DOL Agencies .................................................................................................9
Reports by OIG Components..............................................................................................................8
Total ............................................................................................................................................2,037

Allegation Reports by Referral:
Referred to OIG Components ...........................................................................................................76
Referred to DOL Program Management.........................................................................................754
Referred to Other Agencies .........................................................................................................1,074
Total ............................................................................................................................................1,904




Semiannual Report to Congress                                                                                                                 60
April 1, 2005–September 30, 2005
